Title  : OIG-11  Number 11--NSF OIG Semiannual Report to the Congress
Type   : Report
NSF Org: OIG
Date   : June 9, 1995
File   : oig11



OFFICE OF INSPECTOR GENERAL

Semiannual Report
to the Congress

Number 11

April 1, 1994-September 30, 1994


NATIONAL SCIENCE FOUNDATION
4201 Wilson Boulevard
Arlington, VA   22230


LETTER TO THE NATIONAL SCIENCE BOARD
AND THE CONGRESS


This report describes our activities and accomplishments for the
first half of FY 1994.  Section 5 of the Inspector General Act of
1978, as amended, requires that the National Science Board transmit
this report to the Congress within 30 days of its receipt along
with any comments the Board may wish to make.

We have reviewed the ways we decide which grantees and programs we
audit.  In the near future, we will be significantly expanding the
scope of our financial reviews of NSF's internal accounts.  This
expansion of internal financial reviews is due to the passage of
amendments to the Chief Financial Officers Act.  We continue to
examine ways of realigning our audit resources to meet these new
statutory requirements.

NSF now has a Chief Operating Officer.  The Senate confirmed Anne
Petersen, the agency's Deputy Director, in July.  We look forward
to working closely with her to achieve our common goal of improving
NSF's operations.


Linda G. Sundro
Inspector General
October 31, 1994


EXECUTIVE SUMMARY


FINANCIAL AUDITS

We audited 22 organizations that received their first NSF awards.
These awards support science and engineering education.  Of $4
million in claimed costs, we questioned $1.5 million.  Almost all
questioned costs were associated with 8 of the 22 organizations.
We identified areas that should be addressed to reduce questioned
costs.

We continued our audits of organizations that receive large NSF
awards.  At a Federally Funded Research and Development Center, we
recommended significant changes in administrative practices
concerning indirect costs and internal controls.  Audits at four
Science and Technology Centers and two Engineering Research Centers
gave us confidence in the financial and administrative management
of these centers.

INSPECTIONS AND PROGRAM AUDITS

We identified potential improvements in the economy and efficiency
of logistical support for NSF's operations in Antarctica.

Recommended improvements in the efficiency of some aspects of
proposal processing at NSF.

We inspected three institutions and recommended improvements in
program, administrative and financial management.

INVESTIGATIONS

Investigated two education awards and obtained a felony plea and
monetary recovery.

Investigated fraud by businesses that received awards under the
Small Business Innovation Research Program.

NSF agreed to implement several systemic recommendations to reduce
the potential for fraud in the SBIR program.  One recommendation,
involving the tracking of financial expenditures, remains
unresolved.

MISCONDUCT IN SCIENCE

Concluded there was misconduct in three cases and referred them to
the Deputy Director for adjudication.


CONTENTS



         Audit

         Investigations

         Oversight

         Legal

         Significant Audit Recommendations
          From Previous Semiannual Reports

         Reports With Outstanding Management Decisions

         Agency Refusal to Provide Information of Assistance

         Inspector General's Disagreement
          With Significant Management Decisions

         List of Reports

         Statistical Table of Inspector General
          Issued Reports With Questioned Costs

         Inspector General Reports With
          Recommendations That Funds Be Put To Better Use

         Additional Performance Measure


ACRONYMS


AICPA          American Institute of Certified Public Accountants
ASA            Antarctic Support Associates
BIO            Directorate for Biological Sciences
BFO            Best and Final Offer
CFO            Chief Financial Officer
COI            Conflict of Interest
COTR           Contracting Officer's Technical Representative
CPO            Division of Contracts, Policy, and Oversight
DAEO           Designated Agency Ethics Official
DCAA           Defense Contract Audit Agency
DEB            Division of Environmental Biology
DFM            Division of Financial Management
DGA            Division of Grants and Agreements
ECIE           Executive Council on Integrity and Efficiency
EDP            Electronic Data Processing
ERC            Engineering Research Center
FCTR           Federal Cash Transactions Report
FDP            Federal Demonstration Project
FFRDC          Federally Funded Research and Development Center
FMFIA          Federal Managers' Financial Integrity Act
FOIA           Freedom of Information Act
GAO            General Accounting Office
GPO            Government Printing Office
HHS            Department of Health and Human Services
IPA            Independent Public Accountant
MPS            Division for Mathematical and Physical Sciences
NCAR           National Center for Atmospheric Research
OMB            Office of Management and Budget
PCIE           President's Council on Integrity and Efficiency
PI             Principal Investigator
QCR            Quality Control Review
REU            Research Experiences for Undergraduates
SBA            Small Business Administration
SBIR           Small Business Innovation Research
STC            Science and Technology Center
UCAR           University Corporation for Atmospheric Research
USAP           U.S. Antarctic Program


REPORTING REQUIREMENTS



The table cross-references the reporting requirements prescribed
by the Inspector General Act of 1978, as amended, to the specific
pages in the report where they are addressed.


Requirement

Section 4(a)(2)     Review of Legislation
                     and Regulations

Section 5(a)(1)     Significant Problems, Abuses,
                     and Deficiencies

Section 5(a)(2)     Recommendations With Respect
                     to Significant Problems, Abuses
                     and Deficiencies

Section 5(a)(3)     Prior Significant Recommendations
                     on Which Corrective Action Has
                     Been Completed

Section 5(a)(4)     Matters Referred to Prosecutive
                     Authorities

Section 5(a)(5)     Summary of Instances Where
                     Information Was Refused

Section 5(a)(6)     List of Audit Reports

Section 5(a)(7)     Summary of Each Particularly
                     Significant Report

Section 5(a)(8)     Statistical Table Showing
                     Number of Reports and Dollar
                     Value of Questioned Costs

Section 5(a)(9)     Statistical Table Showing
                     Number of Reports and Dollar
                     Value of Recommendations That
                     Funds Be Put To Better Use

Section 5(a)(10)    Summary of Each Audit Issued
                     Before This Reporting Period for
                     Which No Management Decision Was
                     Made by the End of the Reporting
                     Period

Section 5(a)(11)    Significant Revised Management
                     Decisions

Section 5(a)(12)    Significant Management Decisions
                     With Which the Inspector General
                     Disagrees

AUDIT

The Office of Audit is responsible for auditing grants, contracts,
and cooperative agreements funded by NSF's programs and operations
and for ensuring that financial, administrative and program aspects
of those activities are reviewed. The Office evaluates internal
controls, reviews data processing systems, and follows up on the
implementation of recommendations included in audit reports. In
addition, the Office assists in the financial, internal control,
and compliance portions of OIG inspections.

All audit reports are referred to NSF management for action or
information. The Office of Audit advises and assists NSF in
resolving audit recommendations. The Office also acts as a liaison
between NSF and audit groups from the private sector and other
federal agencies by arranging for special reviews, obtaining
information, and providing technical advice. The Office of Audit
provides speakers and staff assistance at seminars and courses
sponsored by NSF and other federal agencies  and at related
professional and scientific meetings.


________________________________________________

IDENTIFICATION OF POTENTIAL AUDITS

We audit all of NSF's programs and internal operations as well as
individual awards NSF makes to its grantees. Since our inception,
available resources have been insufficient for us to routinely
audit all internal and external programs and operations, so we must
decide which programs and awards would most benefit from an audit.

We are frequently asked how we determine which programs we will
audit and what criteria we use to make this determination. It is
sometimes difficult for us to answer these questions because there
are so many criteria involved in scheduling an audit.  These
criteria include:


o    the amount of money involved in the program or award;

o    the availability of audit staff members to conduct the audit;

o    whether there have been any complaints about the program's
     operation and the source of those complaints;

o    whether NSF has cognizance for the funded institution;

o    how recently we conducted an audit, investigation, or
     inspection of the entity; and

o    when the entity was last visited by NSF's program staff.


We use these criteria to identify those grantees that are
"at risk" of not properly accounting for federal funds. "At risk"
entities are more likely to be audited either by independent public
accountants (IPAs) under contract to OIG or directly by OIG audit
staff.

Grantees selected for audit are divided into two groups: those that
IPAs are well suited to review and those that our audit staff is
better suited to review.
________________________________________________



Independent Public Accountants. NSF has contracts with seven
IPAs--two of which are among the nation's six largest IPA firms.
IPAs compete for these contracts every 5 years and are
selected based on an evaluation of their price proposals and
qualifications.

IPAs review:


o    accounting systems that have indirect cost
     rate problems;

o    institutions that are new to NSF or have
     individual programs that can be readily reviewed;

o    specific programs where the IPAs have particular expertise;

o    and programs that, because of their large size, require a
     significant amount of audit staff members to conduct the
     review over a short period of time.


In FY 1994, IPAs completed, and issued final
reports on, 71 audits. The cost of these audits ranged from $3,579
to $56,763.

IPA audits begin when we identify a grantee or contractor for
audit. We gather information about the award, such as award
letters, budget information, project descriptions, and Federal Cash
Transaction Reports (FCTRs) from NSF's on-line computer system;
Division of Financial Management (DFM); Division of Contracts,
Policy, and Oversight (CPO); and program offices. We use this
information to prepare the audit scope, which describes the audit
work to be performed.

Once the audit scope is complete, we identify the IPA who will
conduct the audit and estimate the audit's cost. We provide the IPA
with an audit package that includes (1) letters to notify the IPA
of the audit assignment and to request price proposals and (2) a
letter to notify the grantee/contractor that an IPA will be
auditing their organization. The grantee/ contractor is sent a
notification letter at least 3 weeks before the initial survey
visit.

If the IPA decides, from the results of the preaward survey, that
an audit is feasible, the IPA schedules a date and time to conduct
the on-site review and audit. When the audit is complete, the IPA
holds an exit conference with the grantee/contractor and prepares
a draft audit report. The grantee is given the opportunity to
comment on the report. We review the final report, and then, if it
is satisfactory, we forward the report to management for
resolution.

OIG Audit Staff.   When OIG was established in 1989, the Office of
Audit comprised five staff members who reviewed contract auditors'
reviews of NSF's contractors and grantees. Because we had few
auditors on staff, we had to limit our audits primarily to annual
reviews of Federally Funded Research and Development Centers
(FFRDCs) as well as special requests for audits by NSF management.
We relied heavily on the Defense Contract Audit Agency (DCAA) and
IPAs to conduct reviews at most contractors and grantees. At that
time, the audit cycle exceeded 13 years.

**********************************************************

               Audit Cycle

Referes to the number of years between financial reviews.

**********************************************************


By FY 1994, the audit cycle was reduced to approximately 6 years.
We now have six, two-person audit teams, which  comprised an
auditor-in-charge and one additional auditor. These teams conduct
reviews that involve issues requiring more consultation with
managers in the Office of Audit, lawyers, investigators, NSF
contract and grant specialists, and NSF program staff members.
Depending on the audit scope and the amount of work involved in an
audit, auditors may be added to, or removed from, an audit team.
However, we try to have at least two persons conducting an audit.
We also try to schedule our audits so that site work can be
completed in less than 2 weeks.

We begin these audits by selecting an auditee based on the criteria
that we used to determine which auditees were "at risk." Once an
auditee is identified, the audit team requests the program folder;
CPO indirect cost folder; Division of Grants and Agreements (DGA)
folder; and DFM files on FCTR and public vouchers, payments, and
interest income schedules. The data contained in these files are
added to the information developed during the risk assessment. This
information is used to define the audit's scope and the resources
required to conduct the audit.

Before the audit begins, the auditor-in-charge develops a detailed
audit plan that identifies the records and controls that will be
tested. These documents serve as the outline for the review; the
development of the audit workpapers; and, ultimately, the audit
report. Our auditors conduct the audit in accordance with the
standards set forth in the General Accounting Office's (GAO)
"Government Auditing Standards" (the Yellow Book).

When the audit is complete, the auditor-in-charge discusses the
findings with the grantee or contractor at an exit conference. The
auditee is then given the opportunity to provide formal, written
comments, which are included in the final report. Every final audit
report is submitted to NSF management, which is responsible for
resolving audit findings.

In addition to these audits, we also review NSF's internal
activities.  A discussion of these reviews follows.

Internal Audit. This section  comprises three auditors and one
Electronic Data Processing (EDP) auditor. These staff members
review and evaluate the financial, administrative, and program
aspects of NSF's activities. They evaluate the effectiveness of
existing policies and procedures and provide NSF management with
recommendations designed to:

     promote economy, efficiency, and effectiveness in the
     administration of NSF programs and operations; and

     prevent and detect fraud and abuse in NSF's programs and
     operations.

Until 1991, we performed mainly discretionary reviews based on
weaknesses identified in NSF's administrative, operational, and
financial areas. However, since 1991, we have shifted our focus
primarily to statutory audits to comply with the:

     Chief Financial Officers (CFO) Act of 1990, and

     Federal Manager's Financial Integrity Act (FMFIA) of
     1982.

We conduct these audits in four phases: (1) planning, (2) internal
control, (3) testing, and (4) reporting.


________________________________________________

AUDITS IDENTIFIED BY THE STRATEGIC PLAN

One important criterion for audit selection has been evolving since
1992. That year, we developed a strategic plan that identified
programs within NSF that we would target for increased audit
oversight (see Semiannual Report Number 7, page 2). The three areas
identified in the strategic plan were:

o    science and engineering education programs,

o    large projects (including centers and national research
     facilities), and

o    the Antarctic program.

Since we focus on reviewing work done and money spent in these
areas, awards and programs under one of these three categories have
a greater likelihood of being audited.
________________________________________________



SCIENCE AND ENGINEERING EDUCATION

This systemic initiative focuses on whole systems that  improve
education in science, mathematics, and technology  in entire
states, major urban centers, and rural areas. This is done through
broad partnerships that develop goals, solutions, and actions.
Funding for the science and engineering education program has
increased from $171 million in FY 1989 to about $606 million in FY
1995. This increase was due, in part, to the national concern with
science, mathematics, engineering, and technical education. As the
funding for this program has increased, more educational activities
have begun receiving support.

Many of the entities that now receive science and engineering
education awards have not previously received federal support and,
as a result, may not be familiar with the federal rules and
regulations that govern that support. For this reason, we developed
a plan for auditing 29 of those grantees that had not previously
received NSF funds (Semiannual Report Number 10, page 3). During
this reporting period, we completed reviews of 22 of those
grantees. We were pleased to find that 14 of the 22 grantees in
this sample had relatively small amounts of questioned costs.
However, the other eight grantees had questioned costs ranging from
32 to 95 percent of their claimed costs. Our audits of these 22
grantees questioned an aggregate $1,542,358 (40 percent) of the
$3,944,768 claimed. This amount indicates that significant
difficulties remain.

In response to the most common findings from these reviews, we
recommended that institutions:

     develop a better understanding of the requirements of
     cost sharing and the implications of not meeting
     cost-sharing commitments;

     establish and maintain  accounting systems that meet
     federal requirements;

     adopt written policies and procedures to inform their
     principal investigators (PIs) and administrative staff
     members of award requirements;

     implement internal controls to ensure that grantees
     comply with the award's requirements;

     develop a systematic way of accumulating and filing
     support documentation for expenditures, including payroll
     data and timesheets; and

     fully document subcontract and consultant agreements and
     the detailed billings related to those agreements.

We intend to continue to give priority to auditing education awards
at institutions that:

     do not have previous experience with federal support and
     therefore may not understand the ramifications of grant
     periods and allowable cost principles;

     are not part of a larger organization that provides oversight,
     such as a major university; and

     implement education programs through multiple
     subcontracts and consultants.


________________________________________________

Below are summaries of five audits that we conducted in the
education area. In each of these audits, we questioned 50 percent
or more of the claimed costs.
________________________________________________



Museum Does Not Have Adequate Cost Sharing

NSF awarded a $650,000 grant to a nonprofit corporation to study
forensics. The organization claimed $650,000, and we questioned
$402,330. We questioned $84,572 because the corporation incurred
and paid subcontract costs more than 90 days before the grant's
effective date without NSF's prior written approval. We also
questioned $317,758 in unsupported cost sharing.

In the original grant proposal, the grantee estimated that the
project would cost $1,575,875. The grantee proposed to pay $975,875
(58.8 percent) of those costs if it received $650,000 in grant
funds. Although the grantee provided a schedule to account for
$227,468 in self-incurred costs, $192,485 of that amount was not
acceptable because:

o    costs were incurred over 90 days before
     the award's effective date;

o    costs were incurred in the proposal's preparation and were not
     allowable;

o    certain costs (such as meals and public information services)
     were not necessary for the award's performance;

o    costs were not documented to support that they were incurred;
     and

o    costs claimed and acceptable for cost sharing were not
     incurred in the same proportion to the total project costs as
     was proposed.


Science Center Does Not Have
Documentation for Claims

NSF awarded two grants totaling $347,127 to a nonprofit corporation
to help reform science education and teaching through a network of
science education specialists, teaching workshops, interactive
video telecasts, and on-site mentors. The corporation claimed
$347,127, and we questioned $252,697. We questioned $96,738 of
claimed costs because there was insufficient documentation to
support indirect costs, materials and supplies, participant support
costs, and travel. We also questioned $117,261 because there was no
documentation for how requirements for matching funds were met.


Communications Company Claims
Unsupported and Ineligible Costs

NSF awarded a $339,921 grant to a for-profit association to develop
a radio series. The association claimed $256,985, and we questioned
$245,454. We questioned approximately $74,000 of the claimed costs
because the grantee did not provide documentation to support the
salaries and wages claimed for senior personnel or costs claimed
for the purchase of equipment, travel, materials and supplies, and
paid to subcontractors. The grantee incurred an additional $43,000
in claimed costs for advertisement costs, public relations costs,
and permanent general purpose equipment. These items are ineligible
for reimbursement under federal cost principles.  We also
questioned $128,500 of claimed cost sharing because it was not
adequately documented.


Firm Claims Ineligible
Subcontract Expenses

NSF awarded a $567,100 grant to a for-profit corporation to create
a curriculum that stresses minority role models and achievement.
The corporation claimed $320,688, and we questioned $161,836. We
questioned $143,020 because the corporation contracted for services
that were significantly higher than the lowest bid with no
justification, did not have support for the billings under the
contract, and issued other contracts over $10,000 that were not
justified or analyzed to ensure that the best price was received.
We also found that the proposed 19-percent cost sharing was not
being met. Instead, the corporation had contributed to costs at
about a 7-percent rate.


Questioned Payments for Consultants
by Educational Foundation

NSF awarded $397,224 to an educational foundation to stimulate
interest in mathematics and science among elementary school
students. The grantee claimed $130,869, and we questioned $72,783
of costs claimed under the grant and $3,193 of indirect costs
claimed in the indirect cost pools because the grantee:

o    did not support the consultants' rate of pay with written
     agreements and invoices,

o    incorrectly charged consultant costs to the NSF award instead
     of a Department of Energy award,

o    claimed consultant costs twice,

o    incorrectly charged consultant costs as direct costs rather
     than as indirect costs,

o    claimed travel costs that exceeded federal per diem rates,
     and

o    improperly charged entertainment costs to the indirect cost
     pool.


LARGE-SCALE PROJECTS

NSF funds about 300 large projects, at an approximate annual cost
of $900 million. By auditing large-scale projects, we  review (1)
critical mass centers, which bring researchers together to work
toward a common objective, and (2) facilities, which provide access
for large numbers of researchers to equipment that is otherwise
generally unavailable.

Examples of large-scale projects include: FFRDCs, Engineering
Research Centers (ERCs), Science and Technology Centers (STCs),
Materials Research Centers,  Supercomputer Centers,  Alliances for
Minority Participation, Minority Research Centers for Excellence,
Long-Term Ecological Research Sites, National Astronomy Centers,
and Astronomical Observatories.

During this reporting period, we conducted audits at one FFRDC, two
ERCs, and four STCs. Our audit of the FFRDC identified $4.6 million
in savings for the government.  In contrast, approximately 95
percent of the costs claimed by the ERCs and STCs we audited were
well-supported and reasonable. To date, our limited reviews of the
STCs and ERCs have contributed to a relatively high level of
confidence in the financial and administrative management of most
STCs and ERCs. As a result, we plan to focus future audits on
large-scale projects that are not STCs and ERCs, such as other
types of centers and national research facilities. We also will
continue to audit FFRDCs.

Based on the results of the audits conducted in this area, we
developed the following criteria for auditing large-scale projects.
We are most likely to audit those large-scale projects that:

     have their own accounting systems, which are separate
     from the sponsoring university's;

     are not physically located near the sponsoring
     university, where university administrators have the
     opportunity to observe the project's daily operations;

     have several major components or missions, each of which
     is monitored by a different accounting system; and/or
     perform a relatively unique function, when expertise in
     that function is not represented by staff members
     employed at the sponsoring university.

Discussions of our audit of an FFRDC and some of the findings we
developed as a result of audits conducted at ERCs and STCs follow.
The information developed from the audits of ERCs and STCs is
combined because the programs and findings are similar.


Audit of an FFRDC Identifies
Substantial Cost Savings

FFRDCs are managed and operated by institutions, corporations, or
other research entities under agreements with the government. NSF
is the primary funding source for, and is responsible for, regu-
larly auditing the following FFRDCs.

     The National Astronomy and Ionosphere Center, managed by
     Cornell University.

     The National Optical Astronomy Observatories, managed by
     the Association of Universities for Research in
     Astronomy.

     The National Radio Astronomy Observatory, managed by
     Associated Universities, Inc.

     The Critical Technologies Institute, managed by Rand
     Corporation.

     The National Center for Atmospheric Research (NCAR),
     managed by the University Corporation for Atmospheric
     Research (UCAR).

UCAR is a nonprofit organization that comprises 60 institutions
located throughout the United States and Canada. Each member
institution has a doctoral program in atmospheric or related
sciences. UCAR oversees a variety of scientific programs and
facilities that serve its member institutions and the academic
community. Each institution contributes money to UCAR, but NSF
provides most of the organization's financial support through a
cooperative agreement with UCAR to operate NCAR. NCAR is a
federally funded research and development center.

We reviewed UCAR's  indirect cost and facility rates proposal to
ensure that UCAR was equitably distributing indirect costs and to
establish indirect cost billing rates for FY 1995. UCAR's proposal
consisted of six indirect cost rates plus a facility use rate. We
tested the FY 1993 costs that supported the claimed indirect costs
and determined whether those costs were reasonable, allowable, and
adequately distributed among UCAR, NCAR, and other programs managed
by UCAR.

We questioned $800,000 of UCAR's proposed FY 1995 costs because
UCAR:

o    claimed unapproved remodeling costs,

o    included building improvements and office furniture in the
     proposal,

o    claimed first- and business-class airfares,

o    included unreasonable employee benefits and entertainment
     costs in the proposal,

o    claimed unallowable depreciation costs, and

o    included unsupported costs in the proposal.

We recommended that NSF disallow the questioned costs when it
computes the 1995 rates. These rates were proposed as fixed rates
with carry-forward provisions. Under this type of rate structure,
adjustments to actual costs are carried forward as an adjustment to
the rate computations for the next period. This recovery method
will result in a future savings of $800,000.

We also questioned UCAR's decision to allocate $3.8 million in
interest payments as indirect costs. These interest payments are
associated with bonds issued to pay for building additions and
renovations and to purchase Cray supercomputers. Under OMB Circular
A-122, interest payments may only be charged as direct, not
indirect, costs. If NSF analyzes these charges as direct costs, it
will be able to appropriately monitor these charges to determine
whether they are reasonable and appropriate.  Along with
questioning these indirect costs, we recommended that UCAR
transfer $1.5 million from one indirect cost pool to another to
more equitably distribute costs among all of UCAR's entities.

We also found the following compliance and internal control matters
not directly related to our indirect cost review that we believe
required reporting:

o    supervisors did not sign time-cards for administrative
     employees,

o    journal entries were not authorized,

o    per diem amounts were not decreased for in-room meals charged
     to hotels,

o    recharge rates were not decreased to offset overcharges,

o    NSF did not fully use UCAR's internal auditor, and

o    general ledger accounts were not clearly defined. We made
     recommendations to improve UCAR's compliance with federal
     requirements and internal control structure.

UCAR generally agreed with our compliance and internal control
findings but disagreed with our decision to question costs. While
UCAR believes that all of the costs we questioned were reasonable
and necessary, we believe that these costs were either unallowable,
unreasonable, or not equitably allocated.  Management will resolve
these issues during audit resolution.


Engineering Research Centers
and Science and Technology Centers

NSF provides significant funding for 18 ERCs and 25 STCs. NSF
established the ERC program in 1985 and the STC program in 1987.
These Centers are located primarily on college and university
campuses nationwide. In FY 1994, NSF provided ERCs and STCs
approximately $110 million, and in FY 1995, the amount of funding
is projected to be $111 million. NSF transfers this money to ERCs
and STCs through cooperative agreements with academic institutions.
Under these cooperative agreements, NSF offers academic
institutions an initial funding commitment of 5 years, with regular
reviews that can extend funding to a maximum of 11 years.

We selected ERCs and STCs for audit because they possess a number
of risk factors. First, Centers' management structures are often
not located near the academic institution that sponsors them. As a
result, a good management structure and effective internal and
compliance controls at the sponsoring institution may not extend to
the Center. Second, Centers typically receive large awards, usually
from $1 million to $3 million, annually. Finally, the competitive
award criteria for selection as a center stresses cost sharing.

This places heightened pressure on awardees to generate funds for
cost sharing from industry and/or state and local governments.

During this reporting period, we conducted reviews and issued
reports for two ERCs and four STCs. We questioned approximately
$560,000 because there was no after-the-fact certification of
salary and wage costs, costs claimed on FCTRs exceeded actual
costs, indirect cost pools contained unallowable expenditures,
and claims had been made for general purpose equipment and
furnishings that should have been charged through the indirect cost
pool.

The following problems associated with cost sharing accounted for
approximately $740,000 in questioned costs.

     Centers' accounting systems inadequately identified and
     tracked claimed cost sharing amounts.

     Some contributions claimed as cost sharing had been
     obtained from other federal agencies.

     Claims of cost sharing for salaries and wages were not
     supported by adequate documentation.

Our audits also assess compliance with federal internal control and
administrative requirements.  These findings do not generate
questioned costs, but are important indicators of good financial
and administrative management.

The most common compliance findings included the following.

     Centers did not comply with rules governing procurements
     because they were not performing cost and price analyses
     or systematically avoiding unnecessary purchases.

     Effort reports were not adequately prepared or
     appropriately reviewed.

     Center managers could not verify work that the Center's
     employees had claimed they performed on Center projects.

     Equipment had not been properly identified and was
     sometimes missing.  In addition, property records did not
     reflect the amounts actually paid.

     There were no formal written policies and procedures on
     the calculation of cash drawdowns and interest.

     The expenditure of federal funds for travel was sometimes
     inadequately approved and documented.

     Budget changes were inadequately reviewed and approved by
     scientists having responsibility for the program's
     performance.


ANTARCTIC PROGRAM

NSF supports Antarctic research and has overall management
responsibility for U.S. operations conducted in Antarctica.
In previous semiannual reports, we explained the reasons for
selecting the Antarctic program for increased audit oversight, and
we discussed financial reviews and audits involving the Antarctic
program (see Semiannual Report Numbers 8, page 3; 9 page 5; and 10,
page 9). In this reporting period, we began a performance audit of
the program.

The U.S. Antarctic Program (USAP) is  a major program over which
NSF has comprehensive responsibility for management of operations.
In FY 1993, NSF appropriated $221 million for USAP activities,
including a significant allocation to the civilian contractor,
Antarctic Support  Associates (ASA).

There are a number of issues unique to Antarctica that are
especially relevant to our oversight responsibilities for  USAP.
These issues include the environment, safety and search-and-rescue
operations, international requirements, tourism, personnel issues,
and logistics.  We focused our first performance audit on issues
involving logistics.

Logistical support is administered primarily through a contract
with ASA and assistance provided by the Navy. NSF's Office of
Polar Programs coordinates ASA's and the Navy's efforts and
endeavors to maximize efficiency and safety while minimizing
duplication of effort. Logistical operations present the greatest
potential for us to have a positive effect on the program's
scientific objectives. For example, in 1990, NSF spent $135 million
on logistic support and $17 million on science; in principle, a
1-percent cost savings in logistics could allow an 8-percent
increase in the science budget.

In this reporting period, we reviewed elements of ASA's procurement
and supply system. We were generally impressed with ASA's
operations. We also identified several weaknesses, and we compiled
a number of recommendations that we believe will lead to cost
savings or increased efficiency.


Significant Potential for Cost Savings
or Increased Efficiency


Increased and Streamlined Competition.   Although competition in
procurements and subcontracts is the best way to ensure
minimal cost to ASA and thus to NSF, there is clearly a point of
diminishing returns where additional competition would not result
in demonstrable cost savings to offset the cost in personnel and
other resources. The Federal Acquisition Streamlining Act of 1994
creates a mechanism for federal procurements that adjusts
procedural requirements in proportion to the financial significance
of the purchase. We believe an analogous approach may be fruitful
for ASA. Since relatively few of ASA's procurements account for
most of ASA's costs, ASA should compete the costly items where
competing each procurement could result in a large amount of cost
savings.  Accordingly, we recommended that NSF work with ASA to
create a competition-in-procurement policy that fosters competition
for as many costly items as possible.

Competition of Subcontracts.   Our review included three
sole-source subcontracts, totaling more than $4 million, that were
awarded to an ASA affiliate. Although ASA's Best and Final Offer
stated that ASA would be using its affiliate companies' expertise
when necessary, the contract requires that ASA competitively select
subcontractors.  We believe that a subcontract to an affiliate
requires vigorous efforts to obtain competition and an indepth
evaluation of the bids' merits to ensure that the affiliate does
not receive preferential treatment.  The basis of ASA's subcontract
awards to affiliate companies is especially important because
between January 1991 and May 1994, ASA awarded 42 subcontracts,
totaling over $6.4 million, to companies affiliated with either of
ASA's two parent companies. Although we have no reason to doubt the
quality of the work performed under those subcontracts, we cannot
determine whether better, or less expensive, performance could have
been obtained because ASA did not obtain competitive bids.  Since
the affiliates do not charge ASA a fee, they may have a competitive
advantage, but they should still be required to provide competitive
bids. We recommended that NSF require that ASA undertake and
document competition and price or cost analyses for all subcontract
awards, including those awarded to affiliate companies, and that
NSF thoroughly review the documentation before it approves
subcontracts to ASA affiliates.

Expedited Procurements.  Under the Federal Acquisition Regulation,
"lack of advance planning" or "concerns related to the amount of
funds available" cannot be used as a justification for using a
sole-source procurement (buying from a single source without
competition).  However, we recognize that the Antarctic program is
unique in that there is limited  time in the austral summer when
equipment and supplies can be conveyed to the ice and when many
research activities can be conducted. In addition, the timing of
the fiscal year can make it difficult to order items on or after
October 1 and receive and transport those items to the ice in time
for the short austral summer (usually 4 months long). As a result,
competition was occasionally truncated or eliminated altogether.
Accordingly, we recommended that NSF and ASA create a fast-track
procurement process that ensures that, even in the press to get
equipment to the ice in a timely manner, an effort is made to
identify alternate sources and obtain competitive bids.


We also identified the following significant issues.


ASA maintains an automated inventory system to monitor which items
are available on the ice and which items need to be reordered. The
addition of distinct line items to this inventory system was
inconsistent. This could result in ASA ordering supplies for which
functionally equivalent alternatives are already available. In
addition, the inventory system did not track items that had been
issued but were expected to be returned to inventory or were
otherwise available if needed. ASA had no mechanism to ensure that
items were returned to inventory when the user was finished with
them. Accordingly, we recommended that ASA implement an inventory
system that identifies and controls all valid line item
identifications to ensure the usefulness of the data in the system.
We also recommended that (1) ASA develop a mechanism for tracking
items that are expected to be returned to inventory at the end of
their use and (2) establish and implement procedures for ensuring
that the items are returned in a timely manner or reported if
destroyed.

Response Pending

NSF and ASA are reviewing our report. We will describe their
response to our recommendations in our next semiannual report.

Future Plans

Our review of the Antarctic program is being conducted in several
phases. We have completed this phase, which consisted of a
performance audit of Antarctic support operations in the
continental United States. We will continue to monitor Antarctic
operations in the next phase of our review, which will include a
review of logistical operations in Antarctica.


________________________________________________

OTHER EXTERNAL AUDITS FOR WHICH NSF IS COGNIZANT

In addition to the audits conducted as part of our strategic plan,
we conduct audits of all types of NSF awards at institutions where
we have "cognizance." Cognizance is the responsibility assigned to
a single federal agency for overseeing and performing financial and
system audits on behalf of all federal agencies.  At almost all of
the institutions where NSF has cognizance, NSF provides more
funding than any other federal agency.  These institutions include
small and large organizations employing from 1 to 1,000 individuals
and include for-profit, nonprofit, and educational institutions;
museums; state and local government units; and hospitals with basic
research programs. We conduct audits at institutions for which NSF
has cognizance based on requests from NSF management. We also
randomly select institutions for audit using the time that has
elapsed since the last audit and the number of awards the
institution has received as the most important selection criteria.

According to federal standards, it is desirable for an audit to be
conducted at every cognizant institution at least once every 3
years.  Because of our limited resources, we conduct audits of
institutions for which we have cognizance only every 6 years. The
National Science Board's Committee on Audit and Oversight has
approved incremental increases in our audit resources to reduce our
audit cycle. Our goal is to conduct audits at institutions for
which we have cognizance every 4 to 5 years.

One type of grantee for which we have cognizance are independent,
small businesses that receive funds under the Small Business
Innovation Research (SBIR) program. To assist NSF management, we
agreed to review financial information supplied by 42 small
businesses selected to receive awards under the SBIR program.
________________________________________________



Below is a discussion of the results of our reviews of the 42 SBIR
grantees.


Preaward Reviews of Potential
Grantees Under the SBIR Program

The SBIR program is a federal program that was created to stimulate
technological innovation in the private sector, particularly among
small firms; increase the commercial application of NSF supported
research; and improve the economic and social benefits of federally
funded research. Awards under the SBIR program are funded in three
phases. However, federal funds are provided for only the first two
phases.

Phase I is a 6-month investigation of the proposed innovative idea
to determine the technical feasibility of the proposed idea and the
firm's ability to produce significant results.  The June 1994
program solicitation estimated that individual Phase I awards would
total $65,000 each.

Phase II is the principal research effort that builds on the work
started in Phase I. Only those awardees that successfully complete
Phase I are eligible to submit a Phase II proposal. The Phase II
awards are expected to be for 24 months and total up to $300,000.

In Semiannual Report Number 10 (pages 20 and 21), we reported on
changes that NSF had made in the SBIR program's administrative
requirements to alleviate some of the administrative burden on
grantees in the SBIR program. The first change NSF made was to
eliminate some of the detailed recordkeeping and reporting
requirements that are necessary under cost-reimbursable awards. The
intent of this change was to ultimately make all Phase II awards
under this program firm-fixed price. This change requires better
planning and more review at the beginning of the proposal and award
process, but it eliminates the requirement that the grantee install
a financial accounting and reporting system that meets all federal
guidelines.

The second change in the administrative requirements is that each
grantee must provide a semiannual progress report with its request
for additional funding. Progress reports must contain enough detail
to assure NSF's program staff members that planned activities were
completed during the reporting period. Progress reports must also
demonstrate that project objectives have been achieved consistent
with planned progress. When a program official accepts the
semiannual report, the next increment of grant funding is released.

Once a technical panel determines which proposers are likely to
receive funding, the proposers are asked to provide detailed
information supporting all line items on the proposal budget and a
detailed project milestone chart. The milestone chart contains for
each 6-month period:

     the levels of effort in person-months for the PI and the
     persons identified as key personnel;

     the levels of effort for consultants and/or
     subcontractors as well as estimated direct costs; and

     an itemized list of costs for permanent equipment and/or
     major purchases of supplies.

We agreed to conduct pre-award reviews of the Phase II proposals
and the justifications for the funding levels provided by the small
businesses to determine the adequacy of the planning and the
support for the estimates of required funding, the small business'
stability, and the likelihood that there are identifiable
benchmarks against which progress can be measured.

During this reporting period, we reviewed 42 proposals and
justifications for new fixed-price Phase II awards. NSF expects to
eventually fund 65 awards during 1994.


***************************************************************

          FIRM-FIXED-PRICE AWARDS

The amount of these awards is decided when the award is signed.
After it is signed, the amount of the award will not change
regardless of how much or little the grantee spends while
conducting work under the award. The award may be terminated or
suspended if the grantee cannot demonstrate progress toward
semiannual project objectives.

***************************************************************



We reviewed the detailed submissions and provided comments to the
NSF grant and program offices. We found that as the grant and
program offices analyzed our questions and comments, they were
more able to identify for the potential grantee the information
needed in our reviews. Therefore, we are finding that the more
recent packages received from the grantees are more complete and
more likely to have appropriate support for salaries and expenses
as well as for unusual or large expenditures.


The results of our reviews of the 42 proposal packages are as
follows.

     None of the 24 proposals that included consultant
     services or subcontracts had documentation to show that
     the organization had used competitive selection processes
     when it chose the consultants/ subcontractors or that the
     consultants'/subcontractors' service fees were based on
     their qualifications, the nature of the work, or the
     service to be provided.

     Several of the consultants' pay rates were estimated at
     the maximum allowable daily rate without any
     justification.

     Over half of the proposals did not contain adequate
     payroll information and salary support.

     About half of the proposals with travel costs did not contain
     detailed explanations of the destinations, number of days in
     travel status, amount of airfare and per diem rates, and
     purpose of the travel.

     Over half of the proposals with significant expenditures for
     materials and supplies did not contain an explanation of the
     types of supplies needed or the source and cost information
     required.

     From the information provided, in about one-third of the
     proposals where materials and supplies were requested, it
     appeared that the items might more appropriately be considered
     permanent equipment.

     In proposals where publication costs were requested, 70
     percent did not contain an explanation of the proposed
     publication costs.

     Many of the budget summaries reviewed contained some
     errors in calculations.

     Not all of the milestone charts contained expense
     projections for all of the expected expenditures.

     In 39 of the 42 proposals reviewed, CPO still had to calculate
     and approve overhead and general and administrative indirect
     cost rates for the grantees.

We provided a written statement of our findings on each of the 42
proposals. We also provided CPO/DGA a summary of our findings on
all 42 proposals. We recommended that CPO/DGA analyze the findings
in our preaward reviews and provide detailed guidance to the SBIR
community, CPO, DGA, and program staff members that identifies the
specific documentation to be required of grant applicants. CPO/DGA
generally agreed with our recommendations.

We expect to continue our preaward reviews for the rest of this
year's submissions.  When we complete these reviews, we will
determine how best to continue to evaluate the SBIR program.


Other Audits at Institutions
for Which NSF is Cognizant

This report describes reviews that we conducted in the areas of
education, large-scale projects, and the SBIR program. Some of
these audits were conducted at institutions for which we have
cognizance. The following summaries describe the more significant
results of audits of other types of awards at seven institutions
for which we have cognizance.


*******************************************************************

          QUESTIONED COST

A cost resulting from an alleged violation of law, regulation, or
the terms and conditions of the grant, cooperative agreement, or
other document governing the expenditure of funds. A cost can also
be "questioned" because it is not supported by adequate
documentation or because funds have been used for a purpose that
appears to be unnecessary.

*******************************************************************


     NSF awarded two grants totaling $797,589 to a for-profit
     organization to develop unmanned aircraft to conduct
     research on changes in the global climate. The
     organization claimed $551,626, and we questioned $207,482
     because the grantee charged $32,024 for cost overruns
     (salaries and fringe-benefit costs) from a non-NSF
     contract; $86,277 in equipment, consultant, travel, and
     other direct costs that were not approved in the award
     budgets; and $89,181 in indirect costs that were not
     applicable to the awards.

     NSF awarded a $250,000 grant to a for-profit organization
     to conduct database research. The organization claimed
     $249,996, and we questioned $157,137 because the
     organization did not support $152,132 of salaries and
     wages with timesheets or records and it did not provide
     adequate invoices and expense reports for $5,005 in
     travel costs.

     NSF awarded two grants totaling $883,860 to a private,
     nonprofit corporation to support a forum that provides
     opportunities for one-on-one discussion between American
     and foreign geographers necessary to sharpen the
     discipline's focus and lead it to new horizons at a time
     of accelerating change and to increase cross-cultural
     understandings of how people live and work. The
     corporation claimed $855,021, and we questioned $66,854
     because costs included unallowable fundraising charges
     and expenses that were incurred before the grant's
     inception.

     NSF awarded two grants totaling $150,844 to a private
     business to  conduct atmospheric research. The
     organization claimed $85,057, and we questioned $57,818
     because the business did not maintain time and attendance
     records to support salaries and wages, and the business
     claimed costs that exceeded actual costs.

     NSF awarded a $250,000 grant to a for-profit organization
     to assist in the development of an instrument to examine
     the structural foundation of bridges. The organization
     claimed $41,602, and we questioned $34,646 because the
     project director's salary, automobile insurance, and
     travel costs were not entirely related to the grant, and
     subcontract and consultant services were not sufficiently
     documented.

     NSF awarded a $200,000 grant to a nonprofit organization
     to conduct research on analytical methods for
     decisionmaking. The organization claimed $157,017, and we
     questioned $29,562 because the organization claimed labor
     and fringe benefits that exceeded actual costs and
     charged the grant for consultant costs that were not
     approved in the award budget.

     NSF awarded two grants totaling $212,445 to a forprofit
     organization to conduct biannual conferences for the
     collaboration of mechanical engineers and others in the
     manufacturing sector; assess the state of tribological
     research and technology in the former Soviet Union; and
     open channels of communication  between tribology
     researchers in the former Soviet Union and the United
     States. The organization claimed $165,433, and we
     questioned $23,551 because the grantee's records did not
     support cost sharing, and the grantee used participant
     support funds to cover cost overruns for materials and
     supplies without NSF's prior approval.


________________________________________________

INTERNAL NSF REVIEWS

We are required to conduct audits of financial management and
internal control activities within NSF. In these reviews, we assess
the economy and efficiency of management actions and review
compliance with internal control principles and various
requirements imposed by law, regulation, and Office of Management
and Budget (OMB) guidelines.

During this reporting period, we continued our review of, and
issued a report on, grant proposal processing times. In preparation
for expanded responsibilities under the CFO Act, we initiated
reviews of NSF's general ledger, EDP controls in the financial
accounting system, and  property and inventory control systems. We
also prepared a report comparing NSF's costs incurred for printing
services to an estimate of the costs for the same services if they
were obtained from the Government Printing Office (GPO). Below are
summaries of the work conducted in these reviews.
________________________________________________



Review of Grant Proposal
Processing Time

Grantee institutions and PIs who are selected for NSF awards should
receive them  as soon as possible. Delays in receiving NSF awards
can disrupt the work being conducted under the award. We conducted
this review in response to concerns expressed by some PIs that the
processing of awards may be unnecessarily delayed after a program
officer recommends that a proposal be funded.

In a previous reporting period, (Semiannual Report Number 9, page
10), we reported the results of our initial evaluation of the time
required to process grants and agreements in NSF's grants division.
DGA's goal is to process each proposal and authorize the award of
funds within 30 days after it receives a recommended proposal from
a program office. Statistical data indicate that, on average,
DGA met this goal in FYs 1989 through 1993, even though the number
of awards increased significantly and the number of staff members
assigned to process them remained relatively constant.

As a result of findings developed in our initial review, we
broadened our scope to analyze proposal processing times within
program offices in the period after a program officer recommends a
proposal for funding, but before DGA receives the proposal.

We identified several causes for delays, or perceptions about
delays, that occurred during this stage of review.

     Program officers, either because of unfamiliarity with
     the process or through a desire to pass on good news, are
     occasionally leading potential awardees to believe their
     awards have been approved when the program officer makes
     a recommendation, even if neither the program's division
     director nor DGA has acted. This results in many PIs
     incorrectly believing that DGA is delaying the award of
     fully processed and approved proposals.

     After a program officer decides that a proposal should be
     funded, it is reviewed by that program office's division
     director. NSF does not have written, agency-wide guidance
     that establishes the amount of time it should take for a
     division director to review a program officer's
     recommendation.

In nearly half of the awards we reviewed, a division director's
determination was made more than 10 days after the program
officer's recommendation. For more than 20 percent of the awards,
the division director took more than 20 days to make a final
determination.  Additional data indicate considerable differences
among NSF's seven program directorates for the time taken for a
division director to review a program officer's funding
recommendation. We believe that all Assistant Directors should
determine whether each division director's time period for
action is acceptable.

     Once the division director concurs with the award
     recommendation, the proposal jacket is usually
     hand-carried from the program office to DGA. Our review
     showed that some proposals were taking considerably
     longer than 2 working days to be forwarded to DGA. In FYs
     1992 and 1993, 1,042 and 1,154 proposals, respectively,
     took longer than 5 days to be entered into DGA's log
     after the division director concurred with the award
     recommendation.

To improve NSF's efficiency in processing proposals, we recommended
that the Director of DGA:

     Continue to develop consistency among grants specialists
     in all phases of proposal processing, as well as
     recognition of any specialized jacket content and
     processing requirements for proposals from the program
     divisions they support.

     Annually review differences for proposal processing times
     among directorates and program divisions to determine
     whether these differences are attributable to the
     complexity of the proposals recommended for award by
     those directorates or whether improvements can be made
     through changes in DGA staffing patterns.

     Ensure that the appropriate program division is notified
     whenever a proposal is received more than 5 days after
     the date the division director recommends that the award
     be funded so the division can evaluate the situation and
     take appropriate action to reduce future delays.

We also recommended that all Assistant Directors:

     Emphasize to program officers that at least two more NSF
     officials  (their division director and a DGA grants officer)
     must approve the recommended proposal before it becomes an
     award and funds are authorized.

     For each program division, review the average time that
     elapses between the date of the program officer's
     recommendation to fund a proposal and the date of the division
     director's concurrence; determine whether this time period is
     acceptable; set a time goal for division director review; and
     take appropriate action to meet the goal.

NSF management generally agreed with all of our recommendations.


CFO Status Report

In Semiannual Report Number 10 (page 12), we reported that Congress
and OMB were considering a proposal that requires that most federal
agencies prepare financial statements that cover all of the
agency's activities. NSF currently prepares financial statements on
about $23 million of its $3 billion in annual expenditures. At the
end of this reporting period, Congress passed a law that requires
that 24 agencies prepare financial statements on all of their
activities. NSF is one of the agencies covered by this new law.
Under this new law, NSF's CFO will be required to prepare the
statements on NSF's $3 billion, and we will be required to audit
these statements.


________________________________________________

The Government Management Reform Act of 1994 was passed in October
1994. This Act amends the CFO Act and requires that agency-wide
financial statements for FY 1996 be compiled and audited by March
1, 1997. At that time, we will be responsible for auditing all of
NSF's financial statements, which account for NSF's  $3.2 billion
budget. This has never been done in NSF's 44-year history.

Availability of audit resources continues to be a significant
factor in our ability to fulfill our statutory obligations and
respond to NSF management's priorities. Our ability to provide
complete audit coverage and to satisfy all of our responsibilities
under the 1990 CFO Act and 1994 Management Reform Act will depend
on our ability to develop additional resources. Discussions
continue between management and OIG on the best way to compile and
audit agency-wide financial statements.
________________________________________________



We currently have neither the personnel nor the financial resources
to undertake such an audit. However, to prepare for completing the
financial statements, we started reviews of selected NSF systems
with staff currently available. The systems or parts of systems
initially identified for review are those on which we would have to
rely substantially to effectively conduct an audit of comprehensive
financial statements.

We began reviews of:

     NSF's general ledger, the maintenance and controls, and its
     adherence to the Department of the Treasury's standard general
     ledger guidelines.

     NSF's EDP controls in the financial accounting system,
     the effectiveness of the controls, and NSF's adherence to
     the CORE Financial Systems Requirements issued by the
     Joint Financial Management Improvement Program.  (The
     Program consists of representatives from  GAO, OMB, the
     Office of Personnel Management, and the U.S. Department
     of the Treasury. This Program's mission is to improve
     financial management in the government.)

     NSF's management and control of real and personal
     property. We are initially conducting a survey of
     computers and data processing equipment to determine
     whether this highly visible and veryportable asset is
     being adequately inventoried and controlled.  NSF has
     identified this category of assets as one requiring extra
     precautions and controls. We will use the results of this
     survey to plan additional property reviews. We believe
     that if controls over data processing equipment are weak,
     other areas of property management and control might be
     vulnerable.

Determining that these systems are reliable, or having changes made
to these systems to comply with federal guidelines if problems are
found, will help ensure that NSF can prepare reliable agency-wide
financial statements. We expect to complete these reviews during
the next reporting period.


Printing Costs

NSF relies on commercial firms for all of its printing services.
NSF has justified this procurement method based on the:

o    need for control over printing jobs;

o    need for a quick response to printing requests;

o    satisfaction with the products received;

o    timeliness of the contractor's billings; and

o    ability to have direct discussions with, and immediate
     feedback from, contractors.

In recent presentations to several Executive Branch agencies, GPO
has said that it can provide printing services to agencies
at about a 40-percent savings over what the agencies could contract
for or provide for themselves. Based on this estimate and the fact
that NSF has not requested or used GPO's services in the recent
past, we compared costs incurred for printing services for seven
NSF publications with an estimate from GPO of the amount it would
charge NSF to produce the same product.  We also reviewed the costs
of mailing these publications. NSF uses commercial firms to label
and mail some publications. We used the commercial firm costs to
compare the quoted costs of mailing by GPO.

In four of the seven publications we reviewed, GPO estimated it
could produce a less expensive product. In two instances,
the GPO estimates were higher than what NSF paid for the printing
job. In one instance, GPO said it could not print the publication
under its current guidelines.  Of the five NSF publications that
commercial firms mailed, GPO could have mailed three at a lower
cost. In the other two cases, GPO's costs were more than NSF's
costs.

Although the savings on printing services were not as great as
initially estimated, we believe that if printing services  are
actually comparable and GPO's estimated costs are close to its
actual costs, selected use of GPO is desirable. We believe that
there are advantages, in addition to the cost differences, that
should be considered.

For example, GPO will produce, at its own expense, additional
copies of a publication that it believes has appeal to the general
public. GPO will then broadly disseminate the publication, which
would help NSF further its goals of educating the general public
and promoting interest about science and engineering.

We recommended that NSF use GPO, on a trial basis, for a portion of
its printing work.  In this trial period, NSF will be able to
determine whether  real cost savings are available and performance
by GPO and its contractors is effective. NSF management generally
agreed with our recommendations.

NSF agreed to analyze these issues to determine whether GPO can
provide the best service at the lowest cost. If so, NSF will
procure some printing services from GPO.


________________________________________________

PEER AND QUALITY CONTROL REVIEWS

In addition to conducting audits, the Office of Audit participates
in Executive Council on Integrity and Efficiency (ECIE) projects
and is responsible for conducting quality control reviews (QCRs) of
public accountants under contract with OIG.

The Inspector General Act of 1978, as amended,  requires that
operations of the offices of audit in OIGs be peer reviewed
exclusively by a federal audit entity. In addition, the Act
requires that OIGs ensure that work performed by nonfederal
auditors also complies with the standards established by GAO's
Yellow Book. Accordingly, during this reporting period, we
completed QCRs on four IPA firms and a peer review of an ECIE OIG.
The results of these reviews are discussed below.
________________________________________________



QCRs Conducted on Four IPA Firms

In 1990, NSF issued contracts to seven IPA firms to assist us in
meeting our audit cycle for conducting financial and compliance
audits on NSF grantees and contractors. We conduct desk reviews of
audit reports issued by these IPAs to determine whether the reports
meet Yellow Book standards and our reporting requirements. While
these desk reviews are effective, they neither assess the quality
of the audit work performed nor determine whether the IPAs are
meeting the Yellow Book's other requirements. Accordingly, we
completed QCRs on firms in Ohio; New York; Virginia; and
Washington, D.C.

The QCRs focused on internal policies and procedures at these firms
to ensure quality audits were conducted,  as required by the Yellow
Book. We also determined whether these IPAs were the subject of an
external peer review every 3 years, as required by the American
Institute of Certified Public Accountants (AICPA) and the Yellow
Book. Additionally, we conducted an in-depth review of working
papers to determine whether:

o    adequate tests were performed to render an opinion on
     financial transactions, internal controls, and compliance
     issues;

o    they were prepared as required by Yellow Book standards; and

o    they supported statements and findings in the audit reports.

We also examined the continuing professional education and training
of public accountants to determine whether it was in compliance
with the Yellow Book.

Overall, we found that the IPAs had internal policies and
procedures to ensure that audits were conducted, as required by the
Yellow Book; evidence that external peer reviews were conducted or
planned to be conducted on their operations to meet AICPA and
Yellow Book requirements; working papers showed that sufficient
work was performed to support findings; and records showed
continuing professional education for staff members assigned to
federal audits was either completed or scheduled to be completed to
meet Yellow Book standards. However, most IPAs had problems
indexing or referencing statements in reports and procedures in
audit programs to support working papers. Also, IPAs did not always
indicate the purpose, source, scope, or conclusion on working
papers, particularly regarding  internal controls. There were a few
instances where the IPAs did not present information in audit
reports, as required in NSF's Audit Guide issued to them or oral
instructions given to them by OIG personnel. We recommended that
the IPAs take corrective actions to improve these cited conditions,
and all IPAs agreed to comply with our recommendations.


Peer Review
of Another OIG

In Semiannual Report Number 10 (page 16), we reported that we had
contacted another agency's OIG, held initial discussions on review
procedures, and  issued the OIG an ECIE-approved questionnaire to
complete. During this reporting period, we completed the on-site
review of the OIG and issued our report. Our review was conducted
under the requirements of the Inspector General Act, as amended,
using the ECIE guides that describe how to determine whether
internal quality controls are established to ensure that audit
standards, policies, and procedures are being followed. We
conducted an in-depth review of their reports, working papers, and
written internal audit policies and procedures.  We also examined
their staffing qualifications, continuing professional education
performance, and other office activities.

Our review confirmed that (1) staff members possessed the knowledge
and skills for the audits assigned and were attaining their
continuing professional education requirements; (2) audits were
adequately planned, staffed, supervised, and conducted as required
by the Yellow Book; and (3) the audit reports and audit working
papers were prepared as required by the Yellow Book.


INVESTIGATIONS

The Investigations section is responsible for investigating
violations of criminal statutes or regulations involving NSF
employees, grantees, contractors, and other individuals conducting
business with NSF.  The results of these investigations are
referred to federal, state, or local authorities for criminal or
civil prosecution or to NSF's Office of the Director to initiate
administrative sanctions or penalties.


EMBEZZLEMENT OR DIVERSION
OF NSF GRANT FUNDS

We place a high priority on allegations involving embezzlement,
diversion of grant or contract funds for personal use, or other
illegal use of NSF funds. Deliberate diversion of NSF funds from
their intended purpose is a criminal act that can be prosecuted
under several statutes. We encourage universities and other
grantees to notify NSF of any significant problems relating
to the misuse of NSF funds. Early notification of significant
problems increases our ability to investigate allegations and take
corrective action to protect NSF and its grantees.

The following section describes cases involving the diversion of
funds that we investigated during this reporting period.


INVESTIGATIONS OF
SCIENCE EDUCATION GRANTS

We conducted several investigations involving allegations of misuse
of funds from science education grants. Over the last 5 years, NSF
has increased the funding it provides to grantees for science and
engineering education. With this increase in funding, we have
received an increased number of allegations of abuse involving
science education grants. For this reason, we have increased our
audits in the education area (see page 4 of this report).
Descriptions of two investigations in which we found substantial
evidence of diversion of education grant funds and one case in
which we found no evidence of andeantional wrongdoing follow.


________________________________________________

     Table 1:  Investigative Case Activity

Active Cases From Prior Reporting Period:    27
New Allegations:                             23
Total Cases:                                 50
Cases Closed After Preliminary Assessment:    5
Cases Closed After Inquiry/Investigation:    19
Total Cases Closed:                          24
Active Cases:                                26
________________________________________________



Funds Embezzled From
Science Education Grants

In February 1994, we were informed by a western research foundation
that an independent audit had discovered that a PI had improperly
spent NSF and department of Education funds from science
education-related grants.  The grants supported an after-school
mathematics program to tutor inner city elementary school-children.
NSF and the Department of Education provided stipends for teachers
and university students to participate in the after-school program.
University students were encouraged to participate in the program
to provide role models for the schoolchildren. Our investigation,
which was assisted by the research foundation and an independent
auditor, revealed that from 1989 to 1993, the PI improperly issued
approximately $87,000 in grant stipends.

Of this $87,000, over $15,000 was issued to university students,
who were told by the PI that the checks had been issued in error.
The students then endorsed the checks back to the PI, who deposited
the funds into his personal account. We also found evidence that
the PI forged the payees' signatures on stipend checks worth nearly
$4,000. The PI cashed these checks and deposited the funds into his
personal account. We also found that an additional $8,000 in
stipend checks were issued to students, who refunded them to the PI
by cash or personal check. The PI then deposited the money into his
personal account. Overall, we found that the PI had fraudulently
diverted over $27,000 in grant funds to his personal financial
account.

In addition to the funds diverted for personal gain, we found more
than $50,000 in stipend checks issued by the PI that were not
authorized under the grants or by the research foundation. We found
that the PI issued stipends totaling (1) $2,000 to staff members as
Christmas bonuses; (2) over $7,000 to an individual for work on a
text-book the PI was writing; (3) $16,000 in payments to students
for work that may or may not have been related to the grants; and
(4) $25,500 for financial assistance to help needy students
purchase books or pay tuition. We found that, in response to
students' requests for assistance, the PI distributed financial aid
in the form of the improperly issued stipend checks.

The PI was able to do this by subverting ordinary university
business procedures. The PI obtained sole signature authority to
issue stipend checks under the grants then appended additional
names onto legitimate stipend voucher sheets, falsely stating that
the persons listed had participated in the education program
supported by the grants. After authorizing that the checks be
issued, the PI would then pick up the checks from the research
foundation offices, thus concealing the fraudulent and improperly
issued stipend checks.

When confronted with this evidence, the PI provided a sworn
statement to us admitting that he improperly issued stipend checks
and then deposited $27,000 in grant funds into his personal
account. The PI resigned from his positions at the research
foundation and the university and reimbursed the foundation $87,361
for the fraudulent and improper expenditures. We referred our
findings to the appropriate U.S. Attorney.  The PI agreed to plead
guilty to violating 18 U.S.C.  Section  666, Theft or Bribery
Concerning Programs Receiving Federal Funds.  Sentencing
by the U.S. District Court is pending.  NSF and the research
foundation are discussing the adjustment of other questionable
expenditures by the PI. Although the PI's actions were egregious,
the research foundation and the university responded quickly and
aggressively to notify us of the diversion of funds and to provide
important and effective assistance in our investigation.


Investigation of Conflict of Interest
and Fraud in Science Education Reform Grant Funds

In 1990, NSF awarded a continuing grant to an education association
to support a national reform of secondary school science programs.
This program was also supported by a Department of Education grant.

Shortly after signing approval on an NSF grant for this project, an
NSF Division Director accepted a position with the association
as the Director of Research and Development on the project.  We
found that the former NSF Division Director had several meetings
with NSF staff members to discuss budgets for supplemental funding
and grant amendments that the former Division Director had
originally approved. Meetings and discussions of this kind are
prohibited by 18 U.S.C.  Section  207, Restrictions on Former
Employees on Representation on Particular Matters.

As Director of Research and Development for the association's
education reform project, the former NSF Division Director was
responsible for public relations and disseminating developed
materials, which required routine travel to give speeches about the
project. Through review of travel expenditures charged to the NSF
and Department of Education grants, we discovered that between
January 1991 and May 1993, the individual embezzled at least
$30,000 in grant funds.

The individual charged the NSF and Department of Education grants
for travel expenses. Although some of this travel was related to
the education association's reform project, we found that other
travel was related to the individual's personal business.   In
addition to charging the federal grants for these travel expenses,
the individual requested and received travel reimbursements from
the institutions and organizations visited. He then deposited the
travel reimbursements into his personal account instead of
returning them to the grants.  The individual also submitted
payroll vouchers falsely charging hours to the grants when the
individual was conducting personal business and charging personal
items to the grants. These acts are prohibited by 18 U.S.C.
Section 666, Theft or Bribery Concerning Programs Receiving Federal
Funds.

As a result of our investigation, the association requested that
the individual repay all funds expended for personal items.
However, the individual resigned from the association without
repaying the funds and has refused to cooperate with our
investigation. We referred our findings to the appropriate U.S.
Attorney, who is reviewing the matter for possible criminal and
civil proceedings.


Investigation of Cost Mischarging
Found No Evidence of Fraud

The Federal Bureau of Investigation received an anonymous
allegation that a small business had been mischarging salaries
under an NSF grant to develop science education materials for
middle school students. It was also alleged that company records
were falsified before an NSF audit to conceal the mischarging. Our
initial review found that an audit of the small business grantee
questioned over two-thirds of the expenditures under the company's
grant because there was no documentation to support the
expenditures. A joint Federal Bureau of Investigation and OIG
investigation found no evidence of fraud or deliberate misuse
of funds. However, the investigation did support the audit
findings.


________________________________________________

INVESTIGATIONS OF FRAUD UNDER SBIR AWARDS

As reported in our previous semiannual reports, we continue to lead
investigations involving fraud in the SBIR program. We continue to
work closely with the Department of Justice on two SBIR cases (see
Semiannual Report Numbers 9 and 10, pages 17 and 19, respectively).
We also continue to press for systemic reform of the program.
During this reporting period, we conducted two new investigations
of SBIR firms. In one case, we found substantial wrongdoing by the
small business owner. The other investigation found no improper
actions by a small business that followed SBIR regulations.
________________________________________________



Investigation of Fraud
by a Small Business

We received an allegation that a small business had submitted a
grant proposal to NSF that contained a forged signature.  While
reviewing the small business' funding history, we found that the
small business had been active in the SBIR program and had received
several awards from other federal agencies. Because the titles of
many of the awards were similar, we requested copies of other
agencies' proposals and final reports and found that several
proposals and final reports were virtually identical. We also found
that the small business owner had falsely certified in proposals
and contract documents that similar proposals had not been
submitted or funded by other federal agencies.

We found evidence that the small business owner had repeatedly
submitted duplicate proposals to different federal agencies,
falsely stating in each that the proposed research was not
submitted or funded elsewhere.  In one case, the business received
funding for the same research from several agencies, then submitted
the same final report to each of the agencies.

The SBIR program requires that PIs be primarily employed by the
SBIR grantee while the research is being conducted, which excludes
full-time employment elsewhere. We found that the small business
owner repeatedly and falsely stated that the PI on an award was
employed by the business, when, in fact, the PI was employed full
time at a federal laboratory throughout the period of the award.

Our investigation also revealed that, despite the small business
owner's certification to the agencies that most of the work would
be conducted at the small business, the owner arranged for all of
the research under several awards to be performed by a university
laboratory, which violated SBIR program requirements. The small
business owner obtained several awards by falsely stating that the
research would be primarily conducted at the small business.

Overall, we determined that the small business owner submitted over
30 false certifications and false statements, acts prohibited by 18
U.S.C.  Section 1001, False Statements, to improperly obtain
over $1 million in SBIR awards. We referred our findings to the
appropriate U.S. Attorney, who is reviewing the matter for possible
civil and criminal proceedings.


Small Business Fully Disclosed
Funding Sources in SBIR Proposals

In November 1993, we conducted a financial and compliance audit of
a small business that received funding from NSF under the SBIR
program. After the audit found that the small business had
improperly charged an NSF grant for similar work being performed
under an SBIR award from another agency, our Office of Audit
requested that the Investigations section conduct a review because
many of the firm's SBIR awards seemed similar in nature.  We
reviewed 13 proposals that the small business had submitted to 3
federal agencies.  We found that the proposals, while similar, were
not duplicative.  For the most part, the proposals were
complementary proposals that built upon previous research. Only two
proposals were extremely similar, and we found that for those
proposals, the small business followed SBIR regulations by listing
the previous contract under the "pending support" section of the
second proposal and including a project summary of that previous
contract. Since the small business fully disclosed its funding
sources and funding history, we determined no wrongdoing on the
part of the small business.  The improper charges to the NSF grant
are being resolved through the audit process.


Recommendations for Systemic
Reform in the SBIR Program

Vice President Gore's National Performance Review recommended that
Inspectors General use the results of investigations to "help
improve systems to prevent waste, fraud and abuse, and ensure
efficient, effective service." Consistent with that advice, we
analyzed systemic issues that arose as a result of our ongoing
investigations involving the SBIR program.  The most significant
problems that we encountered while reviewing grantees under the
SBIR program were the concealment of duplicative proposals
submitted to various agencies and the acceptance of duplicate
funding for the same or overlapping research.  As described
in Semiannual Report Number 10 (page 21), we made a number of
systemic recommendations designed to reduce the potential for this
kind of fraud and abuse. In this reporting period, NSF agreed to:

     clarify and emphasize the prohibition against the receipt
     of duplicate proposals for "overlapping work";

     define "overlapping work" as "any steps in the
     performance of one proposal which would not need to be
     repeated to perform the work on the second proposal";

     require that proposers certify clearly, and under penalty
     of perjury, that the proposal is not duplicative, or
     fully disclose duplicative proposals and awards in
     proposals;

     require that companies certify, at the time of the award,
     and with each progress and final report, that no
     duplicate funding has been received, and that all
     duplicate proposals have been withdrawn from other
     agencies; and

     determine whether the establishment and continuation of
     companies whose sole source of income is from the SBIR
     program is consistent with the program's objectives.


________________________________________________

Table 2

New Referrals:                                    5
Referrals From Previous Reporting Period:         2
Prosecutorial Declinations:                       1
Criminal Convictions/Pleas:                       1
Civil Action Initiated:                           2
Civil Complaints From Previous Reporing Period:   1
Civil Judgments/Settlements:                      1
Administrative Actions:                           3
Investigative Recoveries*:    $107,361

*Investigative Recoveries comprise civil and  criminal judgments,
fines, and restitutions as well as specific cost savings for
the government.
________________________________________________



Recommendation to Track
Financial Expenditures Unresolved

NSF decided to issue Phase II awards to SBIR companies as
"fixed-price" grants.  Payments under Phase II awards will be
contingent on technical reports that describe scientific progress.
One of our recommendations, resulting from our identification of
financial improprieties, was that the Phase II progress reports
also include specific information on financial expenditures.

NSF's Deputy Director convened several meetings with us about this
issue. The Deputy Director reports that NSF is working actively
toward resolving our recommendation. However, as of the date of
this semiannual report, NSF has not decided whether, or how to,
monitor these financial expenditures.  NSF's Deputy Director
expects to resolve these issues shortly. We will describe
management's decision, along with our evaluation of that decision,
in our next semiannual report.


Preaward Reviews Conducted to
Improve Management Controls
in the SBIR Program

The National Performance Review also recommended that Inspectors
General use the results of investigations to "help managers
evaluate their management control systems."  Based on the National
Performance Review, the President's Council on Integrity and
Efficiency (PCIE) urged all Inspectors General to "examine the
underlying causes of fraud ... and recommend ways that program
vulnerabilities can be reduced." As part of this effort, our Office
of Audit conducted preaward reviews of likely grantees under the
SBIR program. For details of these reviews, see page 11 of this
report.


________________________________________________

OTHER INVESTIGATIVE MATTERS


     Procurement Integrity Act Violation

In May 1994, we were asked to determine whether there had been a
violation of the Procurement Integrity Act regarding the
competition for an NSF contract. The Act prohibits the disclosure
of source selection information, except to authorized individuals,
during a federal competitive procurement. Whoever violates the Act
is subject to possible criminal, civil, and administrative action.

During the investigation, a senior NSF official admitted that,
during a telephone conversation between himself and the contract
bidder regarding other NSF business, he released source selection
information to the contract bidder. Although we concluded that the
NSF official violated the Act by disclosing this information, we
found no evidence that the NSF official gained financially by doing
so. We referred our findings to the appropriate U.S. Attorney. The
U.S. Attorney and the NSF official agreed to a civil settlement to
resolve this matter. The U.S. Attorney declined criminal
prosecution.


     Theft of Computer Equipment From an NSF-Funded Research Center

In July 1994, we were informed that approximately $57,000 of
computer and other equipment was stolen from an NSF-funded research
center.  The thefts occurred because established security
procedures, such as the use of coded key cards for access, were not
followed. Local law enforcement officials, in coordination with
OIG, are investigating this matter. The research center's insurance
company will replace the computer equipment.


     Thefts From "Science Fare"

In May 1994, we were notified that there had been numerous thefts
from NSF's cafeteria, "Science Fare." Our review found no apparent
suspects. However, we did find that there were several vulnerable
entrances, and there was no key security. In coordination with the
Division of Administrative Services, front and rear entrance locks
were changed, and a doorbell was installed at the rear entrance
for deliveries. Since the additional security measures were taken,
the thefts have ceased.

________________________________________________



OVERSIGHT

The Office of Oversight focuses on the
science-engineering-education- related aspects of NSF operations
and programs.  It oversees the operations and technical management
of approximately 200 NSF programs that received about 55,000
proposals in FY 1994. The Office conducts and supervises
compliance, operations, and performance audits as well as
investigations of NSF's programs and operations; undertakes
inspections and evaluations; and performs special studies.
It also handles all allegations of nonfinancial
misconduct in science, engineering, and education and is continuing
studies on specific issues related to misconduct in science.


MISCONDUCT IN SCIENCE AND ENGINEERING


******************************************************************

     NSF's DEFINITION of MISCONDUCT in SCIENCE and ENGINEERING

Fabrication, falsification, plagiarism, or other serious deviation
from accepted practices in proposing, carrying out, or reporting
results from activities funded by NSF; or  retaliation of any kind
against a person who reported or provided information about
suspected or alleged misconduct and who has not acted in bad faith.

*******************************************************************


SIGNIFICANT MISCONDUCT CASES


Plagiarism in a Proposal
Submitted to NSF

We were informed that a proposal submitted to NSF contained
material that was copied without offset or attribution from a Ph.D.
dissertation written by a student at another institution. We
compared selected pages from the dissertation and the proposal and
found that text in the proposal's introduction and background was
substantially similar or identical to text in the dissertation. In
response to our request for information about the allegation of
plagiarism, the subject admitted that he had copied the material
from the dissertation. The subject said he might have copied the
information because he was familiar with the field and had used
similar language in his own publications. He said he could not
think of a more concise way of expressing the information. He noted
that he referenced publications by the dissertation's author and
had changed selected phrases within the copied material to indicate
that he had not performed the described work.

We referred this allegation to the institution for investigation.
The institution determined that the subject had committed
misconduct in science when he plagiarized material from the
dissertation in his NSF proposal.  However, the institution said it
could not impose additional sanctions because the subject had left
the institution.  Instead it placed the investigation report in his
personnel file.

We determined the institution had only assessed the copied material
that we had identified. It had neither compared the two documents
for further instances of plagiarism nor reviewed the subject's
other proposal. We began our own investigation. We learned that the
subject had not had the dissertation's author's permission to copy
the text into his proposal. We determined that the copied material
was not present in another NSF proposal that named the subject as
a co-PI and that no further material from the dissertation or other
writings by the author appeared in the subject's proposal. We
concluded that a preponderance of the evidence showed the subject
had committed plagiarism when he copied material from the
dissertation without offset or attribution and that his stated
reason for incorporating the material into his proposal showed that
he had acted with gross negligence.

We forwarded our report to NSF's Deputy Director with a
recommendation that she find that the subject had committed
misconduct in science and take appropriate actions concerning the
subject.  We recommended that for 3 years, any proposals the
subject submits or on which he is named as a co-PI be accompanied
by a certification to our office from the subject that they contain
no plagiarism. We also recommended that the subject be responsible
for obtaining his department chairperson's or equivalent's
assurance that, to the best of their knowledge, the submission does
not contain plagiarized material.  We believe this case emphasizes
the importance of carefully citing and offsetting work copied from
a source document irrespective of that document's nature.
Information in a dissertation is particularly sensitive because the
dissertation may be made available to others before the author has
had an opportunity to publish the results.


Violation of Confidential
Peer Review

We were informed that a foreign scientist had submitted a proposal
to a foundation in his country that contained text, figures, and
formulae copied from an NSF proposal the subject had received for
peer review. We could not defer investigation of the allegations to
the subject's institution because the subject worked at a foreign
institution, which could not reasonably be asked to conduct an
investigation that conformed to the requirements of NSF's
misconduct in science regulation.

NSF instructs its reviewers not to "copy, quote, or otherwise use
material from" a proposal received for peer review. We found that
the subject had reviewed the NSF proposal and that his proposal
contained a large amount of material that was substantially similar
or identical to material in the NSF proposal. The subject had
rearranged the presentation of the material in the NSF proposal
to suit better the flow of material in his own proposal.

We asked the subject about the allegations of plagiarism and the
violation of the confidentiality of peer review. The subject told
us that the copied material contained general knowledge in the
field and that the ideas in his proposal were not derived from the
NSF proposal. He stated that his proposal could stand on its own
merits without the copied text.  He failed to fully address the
significance and extent of the copying.  We explained that the
content of the copied material was not at issue; rather, the
plagiarism allegation centered on his failure to offset the
material and provide a citation to the source document.

The subject explained that he viewed proposals as secret documents
that were not held to the same rigorous standard of attribution as
published works. He said that he had copied other material into his
proposal from source documents, including a paper by the PI of the
NSF proposal, and had not cited the source documents. Despite our
repeated requests, he failed to support his claim that the
material he had copied was in common use by providing documents by
authors other than the NSF PI that contained the same material.

We concluded that a preponderance of the evidence showed that the
subject had knowingly violated the confidentiality of peer review
when he copied material from an NSF proposal received for review
into his proposal.

We forwarded our investigation report to NSF's Deputy Director and
recommended that the subject be found to have committed misconduct
in science and that NSF prohibit the subject from serving as a peer
reviewer for 5 years.  We recommended no additional action to
protect NSF from further plagiarism because the subject resides and
works in a foreign country and does not submit proposals to NSF. We
believe the subject's actions in this case demonstrate the
importance reviewers must place on upholding the confidentiality of
peer review and that plagiarism of any material, regardless
of content, from any part of a proposal submitted to NSF is
unacceptable.


Proposal Seeking Funds for
Already Completed Research

Several reviewers alleged that in a proposal to NSF, a recent Ph.D.
recipient misrepresented research that had already been conducted
as work that would be done under the NSF award he sought. When we
wrote to the subject, he admitted that all of his proposed work had
already been performed when he submitted the proposal. He also
informed us that he had directed that his collaborator's name be
signed on the proposal's certification page without obtaining the
collaborator's permission.

We agreed to permit the university to conduct its own
investigation.  The investigating committee concluded that,
although the subject's proposal was "misleading" and "nowhere . .
. discuss[ed] research in progress or to be done in the future,"
the subject intended to use NSF award funds to support new research
that was an outgrowth of the work misrepresented as new in his
proposal. The university did not find misconduct, but the Provost,
in a letter clarifying the university's findings for us,
"emphatically" agreed that the subject's action was a serious
deviation from accepted practices. Regarding the false signature,
the university found that the subject had committed misconduct.

The Provost and other university officials discussed with the
subject the seriousness of his acts and warned him that future
misconduct would have serious repercussions.  The Provost also
directed that the subject's department chair "carefully review" the
subject's next proposal. The university has also taken steps to
ensure that new faculty members learn the ethical requisites of
proposal writing and that their senior colleagues play a more
active mentoring role.

We believe that the subject committed misconduct both in proposing
work that had already been done and in having his colleague's
signature put on the proposal without permission. We have
recommended that NSF make a finding to that effect. The subject's
actions, if tolerated, would subvert NSF's proposal evaluation
process, which is predicated on the idea that, in deciding on
awards, NSF judges proposed new work. Neither reviewers nor NSF
staff members can assess the intrinsic merit of proposed work if
investigators misrepresent the work for which they seek funding.

The scientific community respects the integrity of NSF's proposal
review process. The subject's disregard for the integrity of this
process seriously deviates from accepted practice in his community,
and it is therefore appropriate that NSF affirm the community's
standards with a finding of misconduct in this case.

However, we believe that several factors mitigate the seriousness
of the subject's action in this case.

     There is no evidence that the subject's action was part
     of a purposeful, coordinated deception.

     The subject took responsibility for his actions when we
     contacted him and fully cooperated in the inquiry and
     investigation.

     There is little difference between the research that the
     subject intended for NSF to support and the research he
     proposed to NSF.

     The subject's age and inexperience, in the words of the
     University's Provost, led him not to "associate with this
     deception  the gravity that most others would,
     particularly experienced researchers."

We also believe that a false signature is an inherently serious
matter and warrants a finding of misconduct. In this case, however,
we believe its seriousness is mitigated by the fact that the
signature did not, and was not intended to, mislead NSF about the
role the collaborator would play in executing the research plan.

We recommended that the subject be sent a letter of reprimand.  We
also recommended that, for 2 years, the subject and the subject's
institution be required to certify that any proposals he submits
accurately state what parts of the research agenda have and have
not been performed. These recommendations are awaiting NSF's
action.  We believe that these recommended actions adequately
protect the integrity of NSF's proposal review process while, at
the same time, they permit an inexperienced researcher to put this
incident of misconduct behind him and pursue his scientific career.


Falsification of Data by a
Graduate Student

We were informed by the institutional representative of a large
eastern university that a graduate student, who was supported by an
NSF grant to his thesis advisor, had allegedly falsified data for
his Ph.D. research.  The institution forwarded the allegation to
the graduate honor court according to institutional procedures.

The complainant had observed that a photograph of an analytical
result presented by the subject at a professional meeting lacked
sufficient clarity. After the meeting, the complainant requested
that the subject reanalyze his sample.  The results of two
subsequent analyses by the subject of the same sample proved
different from each other and from the original result presented at
the meeting.  Additional duplicate analyses of other samples by the
subject produced contradictory results. Later, the subject told the
complainant that he had falsified data for his thesis.

The graduate honor court determined that the allegation should be
investigated. At the honor court's investigation hearing, the
subject pleaded guilty to falsifying data. The institution accepted
the honor court's findings based on the subject's confession, and
the subject was permanently dismissed from the institution with a
statement on his official transcript that he had been dismissed for
a violation of the graduate honor code.  We were informed
that the editors of the journals to which the subject's falsified
data had been submitted had been notified.  We learned that the
subject, after leaving the institution, had returned to his
native country.

We accepted the institution's investigation report, which relied on
the graduate honor code procedures.  The sanctions imposed by the
institution, combined with the fact that the subject had returned
to his native country, led us to conclude that it was unlikely that
the subject would be in a position to apply for, and receive, NSF
funds in the future. Hence, no further action was necessary to
protect the use of public funds and we closed this case.

We noted that many institutions have similar graduate honor code
policies and procedures. In this case, the subject admitted his
guilt and therefore the adjudication was straightforward.
Institutions with similar procedures may encounter more complex
investigations if the subject does not admit his or her guilt. It
is especially important for institutions to determine how the use
of a graduate honor court fits in with the policies and procedures
for handling allegations of misconduct in science and engineering
established by NSF's regulation (45 C.F.R.  Section 689). In
particular, good records of matters involving misconduct in science
should be kept, and NSF should be notified when the investigation
stage is reached.


Failure to Disclose Financial
Conflict of Interest

We learned that although a postdoctoral fellowship application
submitted to NSF contained the required recommendation from the
applicant's dissertation advisor, the materials the advisor
submitted did not disclose that the advisor and applicant were
married.  As such, the advisor stood to gain financially from any
possible award, yet he did not disclose this financial conflict of
interest. The NSF program officer expected that questions on the
recommendation form would have prompted the disclosure of such
information.

Both the applicant and the advisor told us that they thought this
information had been disclosed in the application. The applicant
said that this was the second of four fellowship applications that
had been submitted; the other three were sent to another NSF
program office, another federal agency, and a private foundation,
respectively.  The advisor had submitted recommendations supporting
each application.  We obtained records for two of the other
applications, including the other NSF application, that showed that
he had fully disclosed his marriage to the applicant.

The advisor said that he thought that, unlike the requirements for
the other NSF application, for the application in question he had
to provide information on the form accompanying the program
announcement.  Therefore, space constraints dictated that he edit
and abbreviate the information he had previously supplied for the
other NSF application, and he inadvertently deleted the disclosure
of their marriage. The information in the proposal jacket confirmed
that the recommendation form in this application contained edited
information that on the other NSF application, appeared on sheets
attached to the recommendation form.

We could find no basis for the thesis advisor's impression that he
was to put the information on the recommendation form for one NSF
application but not for the other. However, since both applications
were for fellowships of approximately the same amount, there was no
reason to believe the advisor would have intentionally disclosed
his relationship in the first application yet omit it from the
second.

We concluded that there was reasonable evidence to support the
subject's statement that the lack of disclosure was inadvertent. At
our request, the advisor submitted a disclosure letter to the
program office. We closed this case because there was insufficient
basis for pursuing this matter. This case illustrates the
importance of paying careful attention to financial disclosure when
submitting information supporting another PI's proposal.  On
June 28, 1994, NSF issued an investigator financial disclosure
policy and revised award conditions that require institutions
to "maintain written and enforced policies" (see discussion in
Legal on page 40).


Consulting Relationships
With SBIR Proposals

We closed two cases this period that involved allegations of
plagiarism in SBIR proposals.  These cases differed from those
failed collaborations discussed in Semiannual Report Number 10
(pages 27 through 30) in that these cases involved scientists from
academia who had collaborated with PIs from small businesses in
preparing SBIR proposals.  The academic scientists had expected to
be consultants on any awards resulting from the submitted
proposals, but they were not.  A formal consulting agreement had
not been executed before the scientists provided materials that
were included in the proposals.

In the first case, we were informed that an academic scientist had
written most of the subject's SBIR proposal.  Conversations between
the subject and the scientist had led the scientist to believe that
he would be a consultant on the project if an award was made. It
was alleged that the scientist's contribution to the proposal had
not been acknowledged, and that the subject as PI had failed to
cite a few lines of text that were copied from a manuscript of a
paper by the scientist.

In communications with the subject, we learned that he incorrectly
believed that a proposal did not have to conform to the rigorous
standards of scholarship expected of published papers when citing
the sources of information. We corrected his impression and, at our
suggestion, he submitted an amendment to his award jacket that
acknowledged the scientist's contributions to the proposal, cited
the material copied from the scientist's manuscript, and corrected
numerous other citation errors. We determined that the scientist's
and the subject's discussions had not resulted in a formal
consulting agreement, and that a disagreement developed late in the
collaboration when the subject discovered that the scientist had a
consulting relationship with one of the subject's competitors.
Without a formal consulting agreement, the subject was not
obligated to name the scientist as a consultant; however, he should
have acknowledged the scientist's contributions to the proposal
and cited the material taken from his manuscript.  We concluded
that although the subject did not act professionally, there was
insufficient evidence to pursue a finding of misconduct in science.

In the second case, we were informed that a scientist had assisted
with the preparation of, and served as a paid consultant on, an
SBIR Phase I award designed to assess the feasibility of the
research project. At the subject's request, the scientist sent him
ideas for an SBIR Phase II proposal, which, if awarded, would have
supported the research effort on the project. It was alleged that
the scientist's ideas appeared in the subject's Phase II proposal;
however, the scientist was not listed again as a consultant. We
determined that the general ideas submitted by the scientist that
appeared in the Phase II proposal were not unique. Although the
scientist had assumed that the consultancy role would continue in
any Phase II award, the subject as PI was under no obligation to do
this. The PI was free to identify those who would most
appropriately serve as consultants on this phase of the project.
The subject was not obliged to continue their collaborative
relationship simply because the research was a continuation of
their earlier collaborative work. Hence, this case was closed
because there was no substance to the allegation.

These cases illustrate how allegations of misconduct can arise from
poor communications and a lack of consideration between
collaborators.  As with any collaborative effort, the problems
discussed here might have been avoided if the principals had
formalized their working relationship in advance.


________________________________________________

     Table 3:  Misconduct Case Activity

                         FY 1994        FY 1994
                         First Half     Last Half

Active Cases From Prior Period     87        80

Received During Period             27        20

Closed Out During Period           34        20

In-Process at End of Period        80        80
________________________________________________



________________________________________________

     Outreach Activities

In addition to their work on misconduct in science cases and on
inspections, the Office of Oversight's science and engineering
staff published two papers and made presentations at three
professional meetings.  NSF's Definition of Misconduct in
Science, appeared in the Centennial Review, XXXVIII, No.
2, spring 1994, pp. 273-296, published by Michigan State
University. Approaches to Misconduct in Science: An
Introduction appeared in Accountability to Research, 3,
No. 4, pp. 1-6 (1993). The Oversight staff also made three
poster presentations at the Convocation on Scientific Conduct
sponsored by the National Academy of Sciences, the National Academy
of Engineering, and the Institute of Medicine in June 1994; a
presentation to the Department of Health and Human Service's
Commission on Research Integrity in July 1994; and a presentation
at the Division of Chemistry and the Law at the 208th National
Meeting of the American Chemical Society in August 1994.
________________________________________________



Inspections and Evaluations

In March 1993, the PCIE issued its Quality Standards for
Inspections to guide the conduct of inspection work.  These
standards define an inspection as a process, other than an audit or
investigation, that evaluates, reviews, studies, and/or analyzes
the programs and activities of a department or agency to provide
information to managers for decisionmaking; make recommendations
to improve programs, policies, and procedures; and recommend
administrative action.

We view inspections as an especially effective approach for OIG
oversight in our agency because of the highly technical nature of
NSF's mission.  Our inspections are on-site reviews both within NSF
itself and at institutions that receive NSF funding.  OIG staff
assesses organizations' compliance and effectiveness in three major
areas:  finance, administration, and achievement of program goals
in research and education. Our inspections supplement OIG's ongoing
audit and investigative activities by broadening accountability
beyond financial and administrative compliance requirements to
assess the responsiveness of research and education activities
to program goals. Our external, on-site reviews also promote an
increased awareness by PIs and their sponsoring institutions of the
importance of accountability in the management of, and performance
under, NSF awards. In all inspections, we act as an unbiased
conduit for PIs' and university officials' comments, criticisms,
and suggestions on NSF's operations.

The composition of any inspection team depends on the expertise
required to understand the research or activity to be inspected.
Team members may include scientists and engineers, auditors,
computer specialists, investigators, lawyers, or management/program
analysts. If the expertise is not represented by OIG staff,
consultants from the private sector or other federal agencies may
be used. Evaluation of the inspected institution's policies and
procedures, award documentation, and related financial records is
performed both before and during the inspection.


________________________________________________

During our inspections, we conduct reviews in the following three
areas:

     Financial Review

Our objectives here are to evaluate the adequacy of internal
controls for NSF awards within the department or other
institutional subunit and to assess compliance with the
institution's financial policies and procedures established to meet
federal laws and regulations.

     Management and Administrative Review

The objectives of this portion of the inspection are to:

o    evaluate the institution's ability to resolve allegations of
     misconduct in science and to determine the adequacy of the
     institution's handling of misconduct allegations;

o    assess the institution's compliance with regulatory
     requirements, such as drug-free workplace, lobbying
     certification and reporting, and nondiscrimination;

o    assess the climate for advancement by women and racial
     minorities as scientists and faculty members;  and

o    learn about and evaluate any institutional requirements
     governing employees' financial disclosures. After June 28,
     1995, when the NSF Investigator Financial Disclosure Policy
     becomes effective, we will begin reviewing the systems that
     inspected institutions have in place to comply with this
     policy.

     Program and Research Review

The objectives of this portion of the inspection are to:

o    assess the scientific aspects of the projects funded under the
     awards reviewed,

o    evaluate the adequacy of the facilities and other
     institutional support for these efforts,

o    determine the PIs' views on issues related to the NSF awards
     covered by the inspection, and

o    develop an understanding of the PIs' impressions of the
     quality and adequacy of NSF's proposal review and award
     processes including NSF program officials' interactions with
     PIs.

________________________________________________



THREE MOST RECENT INSPECTIONS

We assessed compliance and performance based on NSF's awards to PIs
at a private, non-profit marine biological laboratory; a private,
nonprofit academic research survey organization; and a University
department of political science.


Inspection at a Private,
Nonprofit Laboratory

We conducted an inspection at a private, nonprofit biological
laboratory where we reviewed performance and compliance under nine
NSF awards.  In conducting our reviews, we interviewed laboratory
personnel and administrators and reviewed relevant documents. For
over a century, this laboratory has held a unique role in
biological research and education. It serves as a laboratory and
library research facility as well as an educational institution for
scientists and advanced students world-wide. During the summer, the
estimated 200 year-round personnel interact and exchange ideas with
over 1,000 students, summer research scientists, and faculty
members who teach courses. These people benefit not only from
interacting with each other but with scientists working at other
research institutions located in or near the laboratory. We found
that the mixture of people, facilities, and location created a
uniquely stimulating environment for scientists and students alike.

The laboratory generally complied with NSF and other federal
requirements.  However, we did identify several conditions that we
consider to be materially deficient and have recommended that a
financial and compliance audit be conducted.

As a result of our inspection, we recommended, and the laboratory
agreed, that:

     when referring to alleged misconduct in science, the
     laboratory would reconsider, in view of "fraud's" common
     law meaning, the use of the terms "scientific fraud" and
     "fraudulent scientific activity" in the laboratory's
     Policies and Procedures on Scientific Integrity;

     it would revise its financial disclosure policy;

     consider formally keeping demographic statistics on its
     course directors, faculty members, and students so that
     it can assess its achievements in attracting minorities
     and female personnel and students; and

     ensure that each current and future student who
     participates in the Research Experiences for
     Undergraduates (REU) Program, before working at the
     laboratory or at one of its field sites, is adequately
     trained in laboratory safety and the relevant animal care
     and use protocols and procedures.

Based on information obtained during our inspection, we recommended
that the  Assistant Director for NSF's Directorate for Biological
Sciences (BIO), evaluate the number, distribution, and training of
rotators within the various programs in BIO.  This evaluation
should include a consideration of the PIs' concerns that the
programs in BIO are not retaining, or passing on to new rotators,
an adequate institutional memory. The Assistant Director explained
that all BIO divisions are organized into clusters that consist of
two to six program officers.  One or two permanent program officers
and one to four visiting scientists are assigned to each cluster.
In NSF's Division of Environmental Biology (DEB), where some
laboratory PIs were concerned about the high ratio of visiting
scientists to permanent program officers, two DEB staff members
have recently received promotions that removed them from their
program officer positions. These positions have been temporarily
filled by visiting scientists who will be replaced by permanent
staff members when appropriate candidates are available. It is
BIO's  intent to maintain a dynamic mix of visiting scientists and
permanent staff.


Inspection at a Private,
Nonprofit Survey Institution

This inspection at a private, nonprofit institution that performs
academic survey research was based on nine NSF awards.  Although
the institution is an independent organization, it is closely
affiliated with a major research university. The institution
contains two loosely related research groups: one group does grant
supported, academically oriented research and the other group
administers surveys that are typically funded by contracts. Three
of the grants we inspected were part of a large and continuing data
collection effort that creates a data resource for social
scientists nationwide.  Data collection practices appeared to be
careful and efficient, with the PIs working closely with technical
staff members to minimize data collection, preparation, and
processing costs.

Although the institution does not provide formal graduate training
leading to advanced degrees, many graduate students from the
university were involved in research that they viewed as an
integral part of their education. The graduate students we talked
to were pleased with their training at the institution, stressing
that their frequent interactions with the PIs had helped them learn
to fashion social science arguments based on quantitative data.

We interviewed personnel at the institution as well as personnel at
the university with which the institution was affiliated, and we
reviewed relevant documents. The institution generally complied
with NSF award and other federal requirements.  Compared to other
grantees that we have audited or inspected, this institution had
one of the best systems in place to document its cost and price
analyses of purchases charged to federal awards. We noted
immaterial instances of noncompliance and internal control
weaknesses and made recommendations to correct them.

In response to our findings, the institution stated that it:

     has taken steps to strengthen internal controls over
     award transactions and travel documentation and
     authorization;

     "is revising its misconduct in science procedure to
     govern PIs and other senior research personnel who are
     full time [institution] employees."  In its revisions, it
     also plans to clarify that the procedures apply to
     graduate students working at the institution, specify
     when NSF is to be informed about allegations, and
     establish a standard of proof.  The institution continues
     to prefer a narrow definition of misconduct in science
     restricted to a "deliberate effort to deceive" and
     believes that grossly negligent wrongdoing can be handled
     in a less formal way. The institution also noted that the
     inspection report "has prompted an extensive review" of
     the misconduct policy at the university with which it is
     affiliated;

     will increase awareness of the requirements for
     appropriate Institutional Review Board action on issues
     concerning research on human subjects; and

     will expand its efforts to increase awareness of federal
     regulations about nondiscrimination and drug-free
     workplace, continue its efforts to recruit minority
     scientific/professional personnel, and develop and
     promulgate its own policy on financial disclosure and
     conflicts of interest.

In addition, NSF's Assistant Director for Social, Behavioral and
Economic Sciences has initiated a study to examine funding and
administration of the Directorate's large survey grants. The study
will conclude before the next renewal review so that any valuable
administrative changes can be implemented. In making REU awards,
the NSF Economics Program agreed to place more emphasis on the
career goals of the undergraduate participants and the quality of
their educational experience.


Inspection at a University
in the Northeast

Our inspection at a political science department at a state
university in the northeast was based on 10 awards: 8 to support
the research of 5 PIs, 1 to support a graduate student's doctoral
dissertation research, and 1 to support an REU site grant.

The political science department is pursuing research and
educational excellence by focusing narrowly on subfields in which
it can realistically hope to assemble excellent groups of
researchers and by giving limited attention to areas that, in other
institutions, are considered to be at the core of the discipline.
The department has three topical specialties, each involving the
quantitative analysis of politics. Graduate students and faculty
members agree that the department provides excellent quantitative
methodology training and extensive practical research experience,
and they report that the department's training has served recent
graduates well. Collaborations between students and faculty members
are frequent and often result in joint publications. We were
impressed with the faculty's generous allocations of publication
credit to graduate students and with the high morale among the
graduate students. Graduate students believed external grants
increased the general level of research activity in the department
and thus benefited the entire graduate student body. Faculty
members praised NSF's proposal and award system, characterizing the
proposal reviews they received from NSF as thorough, fair, and
knowledgeable and comparing NSF reviews favorably to those they
received from leading journals in their field.

We found no major deficiencies. The university generally complied
with NSF's and other federal award requirements. However, we did
make some compliance and internal control recommendations in the
financial and administrative review areas.

As a result of our recommendations, the university stated:

     It is aware of the importance of, and has been seeking,
     an adequate mechanism to effectively administer REU
     supplement awards to NSF grants.  However, the University
     believes that both REU awards in question fulfilled the
     expectation of the REU award program, which is to bring
     undergraduates into the research environment.

     As a participant in the Federal Demonstration Project
     (FDP), it is exempt from most NSF and OMB Circular A-21
     requirements.  It also believes "General purpose
     equipment is not a prior approval reserved for either the
     federal government or the NSF." We note that the
     university is in error in this belief because  Circular
     A-21 cost principles are applicable to all universities,
     including those under FDP. Circular A-21 does not allow
     expenditures for general purpose equipment to be charged
     directly to a grant.

     Its procedures are being rewritten to create a formal
     university Policy on Misconduct.  The university noted
     that our comments will be instrumental in the development
     of this policy.


Follow-up on Previously
Reported Inspections

Inspection at a Chemistry Department.   We inspected a chemistry
department at a university located in the southeast where we
reviewed performance and compliance under 18 NSF awards (Semiannual
Report Number 10, page 36). Our review was generally favorable in
all areas. However, we did find that the university's Policy
and Procedures on Ethics in Research do not specify a standard
of evidence for an investigation. We also found that the University
did not have a formal, written policy on access to laboratory data
generated under NSF awards. We made recommendations addressing
these findings to which the University stated that it will
investigate NSF deferred allegations of misconduct in science in
accordance with NSF regulations, including the `preponderance of
the evidence' standard; and it will issue to all individuals
working in its laboratories a written policy describing the
university's responsibility for access and retention of research
data, its maintenance, and the procedures under which records may
be allowed to accompany a PI or supported researcher to a new
location.

In addition, NSF's Assistant Director for Mathematical and Physical
Sciences (MPS) stated that he is aware that site visits are
important to effective management, but doubts that the severe
limitation on travel funds would be alleviated to permit more site
visits.

Inspection at an ERC.   We conducted an inspection at 1 of NSF's 18
ERCs (Semiannual Report number 10, pages 35 and 36). We found this
Center's internal controls and compliance with applicable
regulations generally satisfactory. However, we did find that the
Center needed to establish a procedure to approve costs when they
exceed original budgeted amounts, to develop procedures to ensure
that personnel activity reports reflect an after-the-fact
confirmation of effort for individuals working on federal awards,
and to develop separate expenditure accounts to ensure that cost
sharing is traceable in the official books of account.

In response to our financial recommendations, the university stated
that:

     It will calculate "other support" with an appropriate
     audit trail.

     It believes that current University policies and
     procedures in these areas are responsive to NSF's
     previous OIG audit and comply with OMB Circular A-21
     requirements.

In response to our suggestion that the university give more
attention to research ethics and misconduct in science, the
university said that:

o    the College of Engineering offers a new course, Engineering
     Ethics, that is open to all students of junior standing;

o    the College of Engineering is no less sensitive than any other
     campus unit to the requirements and procedures pertaining to
     academic misconduct; and

o    the university's policies and procedures complied
     with NSF regulations on Misconduct in Science and Engineering.


In response to our recommendations concerning sharing of proposals
for review, commercialization of Center inventions, and storage and
retention of data, the university said:

o    it welcomes the OIG recommendation about sharing review copies
     of proposals only with NSF approval and it plans to provide
     this advice to all members of the College faculty;

o    it is addressing the problem it has had regarding the
     commercialization of promising technologies; and

o    it does have guidelines on the ownership and retention of
     student works; however, "No federal policies require the
     University or Center to have uniform policies on the recording
     and retention of data."

In response to our recommendations, NSF's Directorate for
Engineering stated that:

     Its policy on the eligibility of ERC participants for
     individual investigator awards has been clearly stated in
     the ERC program announcement:  "Participation in a center
     does not prevent individual investigators from receiving
     NSF support for their own research in other NSF
     Programs."

     Its letter to reviewers of proposals states that the
     proposal and  reviews are confidential and they are not
     to be shared with anyone. The Directorate will ensure in
     the future that this information is consistently included
     in letters to reviewers and panelists.

     The rule for disclosure of inventions and publications to
     NSF should be rescinded if it is judged to be noncrucial
     and is not renforced.  The Directorate for Engineering
     referred our recommendation to the NSF Office of General
     Counsel.


LEGAL

OIG attorneys provide legal advice on all OIG activities, including
investigations, audits, and oversight of NSF's functions and
programs.  OIG attorneys supported many of the activities that are
described in other sections of this report.

Under  section 4 (A)(2) of the Inspector General Act, OIG is
required to review and make recommendations concerning legislation
and regulations that affect NSF and NSF-funded activities. OIG
attorneys are responsible for conducting these reviews as well as
general oversight of NSF's legal activities.



________________________________________________

NSF Issues Final Financial Disclosure Policy for PIs

In Semiannual Report Numbers 7 through 10 (pages 29, 33, 41, and
43, respectively), we discussed progress on a financial disclosure
policy for PIs. In this reporting period, NSF adopted an
investigator financial disclosure policy, which was published in
the Federal Register.

As originally proposed, the financial disclosure policy required
that proposers disclose PIs' financial interests to NSF directly.
However, most of those who submitted comments argued that
institutions should collect financial information and manage
conflicts. As a result of these comments, the final policy does not
require disclosure of financial interest or even conflicts to NSF
unless an institution is unable to resolve a particular conflict
satisfactorily. The final policy requires that an institutional
representative certify that the institution has implemented an
appropriate conflict-of-interest policy, all required financial
disclosures have been made, and either (1) no actual or potential
conflicts exist or (2) all actual or potential conflicts have been
managed satisfactorily or disclosed to NSF.  All PIs must certify
that they have read and understand their institution's conflicts
policy, that all financial disclosures required by the policy have
been made, and that they will comply with all conditions imposed by
the institution to manage conflicts. These certifications
must accompany all proposals submitted to NSF.

The financial disclosure policy requires that grantee institutions
that employ more than 50 persons maintain their own
conflict-of-interest policies with certain minimum requirements.
Persons responsible for the design, conduct, or reporting of
research or educational activities funded or proposed for funding,
by NSF must disclose to their institution their (and their
immediate family's) financial interests related to proposed or
funded NSF research. Institutions must also maintain records
of such financial disclosures and actions to manage conflicts for
3 years after work under the award is complete or any government
action that involves the records, whichever is later. NSF has the
authority to review these institutional records, as they relate to
NSF awards, to ensure that their actions adequately protect the
integrity of NSF-funded research and education activities. NSF will
coordinate these reviews with HHS so that government resources are
used efficiently and institutions are not plagued by numerous
reviews.

NSF's new financial disclosure policy was the result of extensive
coordination among NSF, HHS, the Office of Science and Technology
Policy, and OMB. The policy will become effective on June 28, 1995.

________________________________________________



OIG Identifies Vulnerability for Program Managers Serving
as Officers or Board Members for Scientific Societies

We received an allegation that an NSF program manager, who was also
an elected officer of a scientific society, influenced fellow
members of that scientific society's board of directors by virtue
of the program manager's position at NSF. On inquiry, we determined
that the complainant had no evidence or any definite knowledge that
in a specific situation the program officer exerted influence on
any fellow board member.  The complainant explained that his
allegation originated in the course of an election campaign for the
society's officers and board members and was based exclusively on
his observation of the unusual deference paid to NSF staff by those
eligible to compete for NSF funds. We also found that the program
officer managed proposals and/or awards on which three fellow board
members were PIs. Both the program manager's supervisor and
conflicts official as well as the NSF Designated Agency Ethics
Official (DAEO) knew and approved of the program manager's becoming
an officer and board member.  However, neither apparently
anticipated or addressed in writing the biases or
conflicts-of-interests (COIs) that might arise for the program
officer due to close professional association with fellow board
members or the appearance of being a less-than-impartial NSF
program manager when handling proposals and/or awards for which the
PIs were fellow board members.

Although we found no substance to the allegation that influence was
exerted by the program manager, we did discuss with NSF's DAEO the
possibility of bias or COIs arising out of the close professional
association. The DAEO suggested, and we agreed that, in the future,
when he provides his written approval for NSF staff to hold office
or membership on a policymaking board of a scientific society, he
will advise the individual scientist-program manager to be alert to
conflicts and obtain written advice from a conflicts official in
cases where proposals and/or awards for fellow board members or
officers are placed under the responsibility of the program
manager.  The conflicts official, in written advice, will balance
out all relevant factors in determining whether the program manager
or a substitute program manager should handle the proposals and/or
awards in question.


Need for Procedures to Ensure Enforcement
of Actions Taken in Misconduct Cases

Under NSF's regulation on misconduct in science, when NSF's Deputy
Director decides that the subject of an OIG investigation has
committed misconduct, she then decides what action to take to
protect NSF's interests.  The actions can range from a letter of
reprimand only (which has no affect on either the subject's ability
to apply for and receive NSF grants or the subject's availability
to serve as a peer reviewer of NSF proposals) for the least serious
cases, to government-wide debarment (which prohibits the subject
from receiving grants from any federal agency for a certain period
of time) for the most serious cases. Between these extremes are a
variety of actions appropriate for more moderate misconduct cases.
For example, in several recent cases, one of the actions NSF took
was to require, for a specified period of time, that when a subject
submits a proposal to NSF the subject must also submit (1) a
certification by the subject that the proposal is free of
misconduct in science, and/or (2) a certification by an official at
the subject's institution that the official has reviewed the
proposal and, to the best of the official's knowledge, it is free
of a repetition of the type of misconduct that was the focus of the
case.  In a case involving violation of the integrity of the
confidential peer review process, we recommended that the Deputy
Director prohibit the subject from serving as a peer reviewer for
NSF proposals for a specified period of time.

In Semiannual Report Number 5 (page 38), we discussed NSF's
implementation of procedures to ensure that every new contractor,
grantee, and PI is checked against the General Services
Administration's list of individuals and companies that have been
debarred by any federal agency.  Since then, we have forwarded
several misconduct cases to the Deputy Director in which we
recommended actions other than debarment, such as the certification
requirements and reviewer prohibition discussed above.  The Deputy
Director has imposed some of these other actions on the subjects,
and other cases are pending. However, NSF has no procedures in
place to ensure that these other actions are complied with.  There
are relatively few subjects against whom NSF has taken these
actions, but there are more forthcoming, and, since the actions are
generally imposed for several years, the number may soon become
unwieldy.  We therefore recommended that NSF implement procedures
to ensure that subjects found by NSF to have committed misconduct
comply with all restrictions and prohibitions imposed on them  by
NSF.


Privacy Protected for Individuals
Who Did Not Commit Misconduct

An individual sued HHS under FOIA to obtain the names of all
whistleblowers as well as everyone who had (1) allegedly committed
misconduct in science, or (2) been accused of, but been found by
HHS not to have committed, misconduct. (As discussed in Semiannual
Report Number 9 [page 38], HHS publicizes the identities of
everyone it finds to have committed misconduct in science.) When
deciding whether to disclose personal information about an
individual under FOIA, agencies are required to determine whether
the privacy interest of the individual is outweighed by the public
interest in disclosure. HHS argued that whistleblowers and
individuals accused of misconduct in science but found innocent
have a substantial privacy interest, which greatly outweighs any
public interest in disclosure of their identities. This case was of
considerable concern to NSF because it would establish a legal
precedent directly applicable to NSF were someone to seek such
identifying information under FOIA for NSF whistleblowers and
innocent subjects of allegations of misconduct in science.

The federal district court held that HHS (1) could withhold the
identities of the whistleblowers, but (2) must disclose the names
of those accused of, but found by HHS to have not committed,
misconduct. HHS appealed the decision, and on August 5, 1994, the
U.S. Court of Appeals for the District of Columbia Circuit (1)
affirmed HHS' withholding of whistleblowers' names, and (2)
reversed the lower court and held that HHS does not have to provide
the names of individuals not found by HHS to have committed
misconduct in science.


Administration Requires That Agencies
Implement Environmentally Sensitive Policies

On October 22, 1993, President Clinton issued Executive Order
12873, which requires that all executive agencies take steps to
increase environmental consciousness, provide a model for reducing
waste, and spur innovation in reducing waste. The Executive Order
requires that agencies, among other things:


     implement affirmative procurement programs that maximize
     environmental benefits;

     ensure that agency affirmative procurement programs
     purchase products that meet or exceed EPA guidelines;

     maximize the electronic transfer of documents and the
     double-sided printing of government documents;

     establish goals for solid waste prevention and recycling;
     and

     implement programs to promote cost-effective waste
     prevention and recycling of reusable materials.

We determined that NSF has not yet taken any explicit steps to
comply with the requirements of this Executive Order, and we
recommended that it do so. (However, we do recognize that NSF has,
on its own initiative, been the leader in the federal government in
developing a system for the electronic submission of grant
proposals.)  Because most of NSF's funds are provided to grantees
to conduct research and education in science and engineering, we
specifically recommended that NSF evaluate to what extent it should
amend its grant general conditions to require that grantees act in
a manner that promotes the objectives of Executive Order12873.
NSF has not yet responded to our recommendations.


________________________________________________

OTHER LEGAL ISSUES

     NSF Finalizes Touhy Regulation

In Semiannual Report Numbers 9 and 10 (pages 41 and 43,
respectively), we discussed NSF's progress in implementing our
recommendation that NSF adopt a regulation to establish procedures
for NSF's response to subpoenas. The regulation addresses subpoenas
and other demands for current and former NSF employees to testify
about, or produce records concerning, NSF matters during private
litigation or other proceedings to which the federal government is
not a party. In this reporting period, NSF published first a
proposed and then a final rule establishing these procedures. The
procedures prohibit current and former NSF employees from complying
with those demands without the permission of the Director or the
Director's delegate; OIG employees and former employees are
prohibited from complying with such demands without the permission
of the Inspector General or the Inspector General's delegate.  In
our view, these procedures will minimize the disruption of official
duties caused by compliance with these demands and ensure that NSF
has control over the release of official information.

     Use of Program Income

OMB recently amended its minimal guidelines on what federal
agencies may allow its grant recipients to use program income for.
Program income is "gross income earned by the grantee that is
directly generated by a supported activity or earned as a result of
the grant." The OMB guidelines state that, generally, during the
period of the grant, program income is to be retained and used to
further the objectives of the funded project; however, virtually no
program income is actually subject to this requirement because the
guidelines exclude program income derived from "license fees and
royalties for copyrighted material, patents, patent applications,
trademarks, and inventions."  Under the OMB guidelines, NSF has the
authority to limit the breadth of this exclusion from and thus
broaden the applicability of the project income requirement.  In
our view, NSF's general policy ought to be, at least for grants
that anticipate the development of a potentially marketable product
(such as a laboratory instrument, textbook, or kit of educational
materials), that, during the term of the NSF funding, program
income should be used to further the objectives of the project.
We recommended that NSF amend its grant general conditions
accordingly, and NSF is currently considering our
recommendation.
________________________________________________


SIGNIFICANT AUDIT RECOMMENDATIONS
FROM PREVIOUS SEMIANNUAL REPORTS

We are responsible for reporting to Congress and following up on
the resolution of audit recommendations.  From April 1, 1994,
through September 30, 1994, we have resolved seven reports with
significant audit recommendations.  These reports were noted in
Semiannual Report Numbers 9 and 10.


Professional Foundation
lacks Documentation

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded two grants, totaling $312,612, to a nonprofit
corporation to support the development and enhancement of the
mathematic and scientific skills of precollege Hispanic students.
We questioned $33,596 because salaries, materials, and supplies
were not supported by adequate documentation and claimed costs
exceeded recorded costs.  We also found that the grantee did not
maintain an approved indirect cost allocation plan.  NSF determined
that $23,511 of the questioned costs were unallowable.


Cerro Tololo Inter-American
Observatory

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded a 5-year, $158,543,300 cooperative agreement to the
Association of Universities for Research in Astronomy, in support
of the National Optical Astronomy Observatories.  The Cerro Tololo
Inter-American Observatory (CTIO), located in La Serena,  Chile, is
one of the three observing sites that make up the National Optical
Astronomy Observatories.  We reviewed CTIO operations and about
$3.7 million in costs claimed under the cooperative agreement.  We
questioned $16,904 and made recommendations to decrease operational
costs and improve CTIO's administrative support.  NSF disallowed
$195 of the questioned costs.


Museum Lacks Support
for Expenditures

Period First Reported: October 1, 1993 - March 31, 1994

NSF granted a museum 33 awards to support various projects in
science education.  The museum claimed $2,243,059, and we
questioned $111,413 because documentation supporting claimed costs
was inadequate and consultant costs exceeded the allowable rates.

NSF disallowed $4,522 related to the consultant costs, and allowed
the remainder of the costs based on support and justifications
provided by the grantee.


Nonprofit Corporation Lacks Support
and Approvals for Costs Claimed

Period First Reported: October 1, 1993 - March 31, 1994

NSF awarded a $1.5 million grant to a private, nonprofit
corporation to make and distribute a film that shows the
relationship between mankind and the natural world.  The grantee
claimed $281,019, and we questioned $112,324.  The grantee claimed
costs that were not actually incurred, overhead and fees claimed
were not approved, documentation to support claims was not
available, and travel costs were claimed that were not allowable by
federal cost principles.  NSF disallowed $45,997, and the grantee
provided acceptable information on the remainder of the questioned
costs.


Review of Airline's Proposed Rate
for Work on NSF's LC-130 Aircraft

Period First Reported: October 1, 1993 - March 31, 1994

In response to a request from NSF's Office of Contract, Policy, and
Oversight (CPO), we reviewed the detail supporting the labor rates
in a proposal from a New Zealand firm to maintain NSF-owned
aircraft.  We questioned $12 New Zealand of the proposed $72-New
Zealand rate because indirect costs and adjustments did not comply
with the Federal Acquisition Regulation.

The final rate used in the contract was the proposed rate of $72
New Zealand, which was determined by the contracting officer to be
the lowest available price.



REPORT WITH OUTSTANDING MANAGEMENT DECISIONS

This section identifies audit reports where management has not made
a final decision on the corrective action necessary for report
resolution within 6 months of the reports' issue date.  CPO is
tasked with making management's decision concerning external audit
reports.  At the end of the reporting period there were 22 audit
reports with questioned costs that were not resolved and 2
additional audit reports with outstanding compliance issues
requiring management decisions.  There were a total of nine reports
over 6 months old requiring final resolution decisions at the end
of the last reporting period.


*******************************************************************
Management Decision:  Management's evaluation of audit findings and
recommendations and issuance of a final decision concerning
management's response to such findings and recommendations.
*******************************************************************


Report Number       Title                    Date Report Issued

Reports with questioned costs:

91-1038             Prism Production              12/21/90

93-1050             Museum of Science
                     and Industry                 06/08/93

93-1060             Antarctic Support
                     Associates                   09/30/93

93-1061             Vanderbilt University         09/30/93

93-1065             Catholic Universiry
                     of America                   09/30/93

93-1066             American University           09/30/93

94-1002             Top-Vu Technology, Inc.       11/04/93

94-1004             Council of State Science
                     Supervisors                  11/19/93

94-1006             Energy Concepts Company       01/10/94

94-1007             McLean Hospital               01/10/94

94-1009             Network Dynamics, Inc.        02/01/94

94-1012             Rhode Island Hospital         02/05/94

94-1013             Friends of Fermlab            02/10/94

94-1015             Advanced Surface
                     Technology, Inc.             02/18/94

94-1017             American Express Travel       03/04/94

94-1018             Maine Mathematics
                     & Science Alliance           03/14/94

94-1019             Draco Technology              03/14/94

94-1021             Joel Popkin & Co.             03/23/94

94-1022             Life Lab Science
                     Program, Inc.                03/09/94

94-4023             National Council
                     of Teachers of Math          02/22/94

94-4051             Pacific Science
                     Centers Foundation           11/03/94

94-5099             Bishop Museum                 11/03/93

Reports with only compliance recommendations:

94-4030             California Universities for
                     Research in Earthquake
                     Engineering                  03/14/94

94-5168             Computer Museum               11/10/93




Commercial Firm Earns
Interest on NSF Funds

Period First Reported:  October 1, 1990 - March 31, 1991

NSF awarded two grants totaling $2,225,496 to a privately owned,
for-profit corporation that provides technical and scientific
information to commercial television stations.  The corporation
claimed $2,113,620, and we questioned $410,338 because the
corporation charged unsupported salary costs to the grant, did not
make invoices supporting expenditures available, and charged
indirect costs at a rate higher than the actual or maximum
provisional rate.  We recommended that the corporation return an
additional $21,175 of interest earned on NSF advances to NSF.  NSF
has developed a position paper for use in its next negotiations
with the grantee.  Final action will depend on the grantee's
response to NSF's position.


Museum of Science and Industry

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded over $1.3 million to a not-for-profit museum to support
construction of a new exhibit.  NSF made the award with the
expectation that the grantee would cost share approximately $3.7
million of the project's total costs.  There was a significant gap
between the funding received and the funding needed.  The grantee
claimed $150,777 against the NSF award, and we questioned $29,389.
In addition, the museum provided excessive indirect costs under the
award.  We recommended that the museum conduct an audit in
accordance with federal guidelines, ensure that cash on-hand does
not exceed the project's operating needs, and establish records
that compare budgeted amounts with actual outlays.

Audit resolution is dependent on the negotiation of a new final
indirect cost rate.  Those negotiations are proceeding slowly
because of a disagreement between NSF and the grantee on the amount
of depreciation included in the rate.  NSF expects the negotiations
and the audit resolution to complete by January 31, 1995.


Antarctic Program

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a 6.5-year, cost-plus-award-fee contract to Antarctic
Support Associates (ASA) to fund research activities and operations
as well as to maintain facilities and equipment at sites in
Antarctica.  ASA claimed approximately $169 million.  We questioned
$652,352 because inadequate, and in some cases no, documentation
was provided to support claimed costs related to equipment, travel,
and other services; reimbursement for travel in personal
automobiles was not always justified; documentation that justified
the use of foreign-flag air carriers was not maintained; and
payment made by ASA for services rendered by its two parent
companies was not supported by adequate documentation or a
contractual agreement to be used to determine reasonableness of the
billed costs.

We also noted the following compliance and internal control
deficiencies:  ASA did not notify NSF before it made changes,
totaling $148,000, to a subcontract; formal policies and procedures
related to the use of foreign-flag air carriers and cash drawdowns
were not developed; and appropriate approval was not obtained to
change the level of liability insurance.  NSF is reviewing the
contractor's response to NSF's initial offer for resolution.  A
counterproposal is being prepared for the few remaining issues.
Resolution is expected during the next reporting period.


Vanderbilt University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded  Vanderbilt University five
grants, totaling $2,028,300.  The University claimed $1,933,467,
and we questioned $82,507.  Questioned costs resulted from
personnel activity reports that were incomplete; costs that we
incurred before the effective dates of the preaward periods; travel
costs that were not supported; and indirect costs that were
incorrectly charged against equipment.  Our review of internal
controls and compliance issues disclosed that cost and price
analyses were not always documented, property records were
incomplete, and a system to monitor cost sharing was not
maintained.

NSF and the University are negotiating a settlement.  Resolution is
expected during the next reporting period.


Catholic University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded Catholic University four grants,
totaling over $1.6 million.  The University claimed $1,499,353, and
we questioned $41,244 because salaries were not supported by
personnel activity reports; expenditures were not supported by
documentation; tuition was charged when graduate students were not
working on the awards; and indirect costs were incorrectly charged
against equipment and tuition.  Our review of the internal control
and compliance issues disclosed that equipment was not tagged,
physical inventories were not performed, and a system was not
maintained to monitor cost sharing.

NSF is awaiting receipt of documentation to support the questioned
salaries and wages.  Resolution is expected during the next
reporting period.


American University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded American University four grants,
totaling $2,629,736.  The University claimed $2,037,474, and we
questioned $543,755 because salaries, wages, and tuition costs were
not supported by personnel activity reports, and participant
support costs were not tracked in the University's accounting
system.  Our review of internal controls and compliance issues
disclosed that there was no written documentation to support price
and cost analyses, including competition for purchases of $10,000
or more, or sole source vendor selection.  Resolution of the issues
is proceeding slowly because of a change in NSF personnel.
Resolution is expected during the next reporting period.


For-Profit Company Claims
Ineligible and Unsupported Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF granted $260,000 to a for-profit company to develop electronics
equipment under a Phase II SBIR award.  The company claimed
$91,427, and we questioned $41,427 because salaries and wages,
travel costs, and subcontract claimed costs were not supported.
The company also claimed ineligible indirect costs.  NSF is
reviewing the grantee's response.  Resolution is expected by
January 15, 1995.


Nonprofit Educational Corporation
Cannot Locate Equipment Charged to Award

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded $562,624 to a nonprofit corporation to support the
development of a national science education conferencing network.
The corporation claimed $562,624, and we questioned $98,308 because
the grantee could not locate the equipment claimed as purchased
under the grant and did not provide adequate support for other
costs claimed.

The grantee has promised to provide NSF the supporting
documentation for questioned costs.  Resolution is expected by the
end of November 1994.


Grantee Claims Cost Incurred
After The Grant Expired

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded $226,821 for an SBIR Phase II project.  The grantee
claimed $226,821, and we questioned $56,770 because there were
labor costs claimed that were incurred after the grant expired,
fringe-benefit costs exceeded actual costs, the grantee claimed
costs that were not incurred, and interest was due from NSF advance
payments.  NSF has received partial documentation from the grantee.
Additional information has been requested, and resolution is
expected by the end of November 1994.


Northeastern Hospital
Has Questioned Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded five grants totaling $563,144 to a northeast hospital
to support research projects.  The grantee claimed $369,451 in
costs, and we questioned $5,522.  The questioned costs were for
duplicate charges for services, unauthorized travel and equipment
purchases, and incorrect indirect costs.  The grantee also could
not show that technical progress reports had been submitted to NSF.

NSF is preparing the audit resolution memorandum.  Resolution is
expected within the next two weeks.

Small Business Overclaims
Indirect Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded two grants totaling $356,117 to a for-profit
corporation to assist in the development of computer software
models that aid in the performance evaluation of complex systems of
manufacturing.  The grantee claimed $356,045, and we questioned
$15,596 because actual indirect cost rates were lower than those
claimed and claimed costs were not supported.  NSF is reviewing the
grantee's response and expects to disallow most of the questioned
costs.  Final resolution is expected before <R>January 15, 1995.


Acute-Care Teaching Hospital
Lacks Cost Sharing Records

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded three grants totaling $167,258 to a teaching hospital
for studies in human chromosome structure and insulin-like growth
factors.  The grantee claimed $124,146, and we questioned $1,641
because the hospital made unauthorized purchases.  The grantee also
did not record its required cost participation on the research
projects.  NSF is preparing the audit resolution memorandum.  Final
resolution activity is expected to be complete within the next two
weeks.


Costs Questioned In Connection
With a Science and Math Award

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded three grants totaling $1,123,562 to a nonprofit
association to use national research laboratory's facilities,
personnel, and equipment to develop ways of enhancing precollege
science and mathematics education.  The association claimed
$1,100,979, and we questioned $61,391 of direct costs claimed under
the grants and $323,944 of indirect costs claimed in the
association's indirect cost pools.
We questioned direct costs because the grantee incorrectly charged
material and supply costs to the NSF award instead of a Department
of Energy award, did not the support consultant's rate of pay with
written agreements, and used participant support funds for other
types of costs without NSF's prior approval.  We questioned
indirect costs because the association charged costs to the
indirect cost pools that it did not incur or pay.

NSF is reviewing the grantee's latest response to the indirect cost
issue raised in the audit report.  NSF expects to decide on the
resolution action by the end of the next reporting period.  NSF
expects the grantee to disagree with the final decision.

SBIR Company Overclaims
Indirect Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded $250,000 to an SBIR company to develop new coating
materials and methods for use for electrical insulation of
implantable biosensors.  The company claimed $250,000, and we
questioned $9,826 claimed indirect costs exceeded allowable
amounts.

NSF recently received additional supporting documentation from the
grantee.  Review and final resolution action is expected within the
next month.


Travel Services Provider Fails
to Follow Contract Requirements

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded a 4-year, $5.8-million contract to a travel service
provider to arrange for international travel for U.S. scientists
traveling abroad and foreign scientists traveling to the United
States.  This program is sponsored by the Division of International
Programs.

The contractor claimed $1,559,147, and we questioned $48,787 for
funds that were expended on unauthorized or unallowable items,
excess funds that were not returned by the travelers, travelers'
refunded amounts that were not returned to the NSF account, and
claimed costs that were not supported by source documentation.  The
grantee stated that documentation was being provided to NSF.
Resolution should be complete by January 31, 1995.


Nonprofit Corporation Claims
Unallowable Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded $4,251,500 of an estimated $10 million cooperative
agreement to a private, nonprofit corporation for planning,
operating, and managing a project aimed at assisting young people
in living and working in a changing scientific and technological
society. The corporation claimed $1,802,685, and we questioned
$45,010 because claimed subcontract costs exceeded actual expenses,
claimed costs were not related to the NSF award, refunds and
credits were not deducted from the claimed costs, and cash requests
exceeded award disbursement needs.  NSF is awaiting the repayment
check for the disallowed costs.  Once the check is received,
closure will be complete.


Small Business Innovation Research Grantee
Refuses to Provide Final Project Report

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded a $199,335 grant to a private for-profit business to
develop a suspension core drill that will maximize drilling speeds.

The grantee claimed $193,102 and we questioned $52,976 because the
grantee did not provide adequate documents to support indirect
costs.  NSF is awaiting the grantee's response to the NSF position
on the indirect cost issue raised by the audit report.


Audit of Economic Forecaster
Questions Claimed Costs

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded a grant to develop various price indexes and
cost-of-living comparisons among nations, forecasts of likely
industry changes, and other economic advisory services.

The grantee claimed $195,667, and we questioned $22,209 of direct
costs and $77,751 of fringe benefits and indirect costs claimed.
We questioned these costs because the grantee claimed salaries that
exceeded NSF's ceiling, claimed consultant costs were not supported
by a written agreement or invoices, and charged the same supplies
twice.  We questioned the indirect costs because there was excess
sick leave in the fringe-benefit cost pool, and excess depreciation
was charged in the indirect cost pool.  NSF's program office is
reviewing the grantee's supporting documentation. The review and
resolution should be completed by November 30, 1994.


Review of Grant for the Development
of Elementary Curriculum

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded a $2,208,868 grant to a nonprofit organization to
support the development of a hands-on, elementary curriculum in
science.  We questioned $35,813 because the grantee used NSF funds
to reimburse NSF for costs questioned in a prior audit, timesheets
did not support claimed costs, costs were charged for expenditures
incurred after the award expired, and claimed costs were not
supported by adequate source documentation.  NSF is reviewing the
grantee's response to the audit.  Resolution is expected by
February 1995.


Mathematics Council
Lacks Salary Support

First Period Reported: October 1, 1993 - March 31, 1994

NSF awarded four direct grants and funded three pass-through awards
totaling $496,695 to a mathematics council for FYs 1991 and 1992.
The funding was in support of establishing standards and
disseminating information for the teaching of mathematics.  We
questioned $23,984 because the council did not maintain adequate
documentation for its support staff's salaries.  NSF expects that
the grantee will provide documentation supporting costs that offset
the questioned amounts.  Resolution is expected by November 30,
1994.


Museum Lack Support
of Travel Costs

First Period Reported: October 1, 1993 - March 31, 1994

Claimed museum expenditures of $896,111 were audited and resulted
in $15,310 questioned costs.  The expenditures were to support
museum projects in Pacific region plants and sea life, with the
questioned costs resulting from a lack of documentation for travel
expenditures.  Interest earned on fund advances from NSF were not
remitted to NSF, and the museum did not have an NSF-approved
indirect cost rate.  NSF is awaiting documentation from the
grantee.  Resolution is expected by November 30, 1994.


Nonprofit Organization Lacks Policies
and Procedures for Accounting for General Funds

First Period Reported: October 1, 1993 - March 31, 1994

A nonprofit organization designed to sponsor research in earthquake
engineering claimed $75,600 of NSF funding during the 22-month
period ended December 31, 1991.  Although we did not question
specific expenditures, we found that the organization did not
separately account for federal funds, there was no formal policy on
how to monitor the allowability of federal expenditures, and there
was no formal policy on how to ensure that subrecipients of federal
funding complied with federal laws and regulations.

NSF has contacted the grantee, who is preparing a response.
Because this organization is a consortium of university
representatives, it has been difficult to contact the individual
responsible for preparing the response.  Closure is expected during
the first quarter of FY 1995.


Museum Fails to
Submit Final Report

First Period Reported: October 1, 1993 - March 31, 1994

An A-133 audit approved by the National Endowment for Humanities
covered $149,439 of costs claimed under NSF awards during FY's 1991
and 1992.  Although we did not question costs, there were
procedural processes that needed to be instituted or strengthened.

The auditors found that federal funds requested exceeded cash
requirements, the financial reports submitted to NSF did not agree
with the museum's general ledger, salaries were not adequately
documented, the museum did not maintain adequate cost sharing
records, and final technical reports were not submitted to NSF.

The grantee is preparing a response.  NSF expects to be able to
resolve the audit within the next two months.



Agency Refusal To Provide Information Or Assistance


During this reporting period, there were no reports made to the
National Science Board of instances where information or
assistance, requested under section 5(a)(5) of the Inspector
General Act of 1978, as amended, was unreasonably refused or not
provided.



Significant Management Decisions That Were Revised


No significant management decisions were revised during the
reporting period.



Inspector General's Disagreement With Significant Management
Decisions


The Inspector General has no disagreement with significant
management decisions made during this reporting period.



LIST OF REPORTS

We issued the following audit reports and, where applicable, the
total dollar value of questioned costs (including a separate
category for the dollar value of unsupported costs) is listed for
each report.


NSF and CPA Performed Audits

                              Date
                              Report    Questioned  Unsupported
Number    Grantee             Issued         Costs        Costs

94-1025  William Spangle
         and Associates, Inc. 06/17/94       14,573         0

94-1026  Heusser & Heusser    06/17/94       57,818    57,564

94-1027  Astronomical Society
          of the Pacific      06/17/94        6,482         0

94-1028  Solar Physics
         Research Corporation 06/17/94            0         0

94-1029  Eli Whitney Museum   06/17/94        4,392     4,296

94-1030  Buckeye
          Bluegrass Farms     06/17/94       12,666     4,102

94-1031  Adelphi
          Technologies, Inc.  06/17/94        2,763         0

94-1032  Chromex, Inc.        06/17/94          707         0

94-1033  27th International
          Geographical
          Congress            06/17/94       66,854    66,854

94-1034  Consumers Union
          of United States,
          Inc.                06/17/94            0         0

94-1035  Reynolds & Schaeffer
          Associates          06/17/94            0         0

94-1036  Data Parallel
          Systems, Inc.       06/17/94      157,137    156,959

94-1037  The Emeritus
          Foundation          08/08/94       72,783     41,917

94-1038  Aurora
          Flight Sciences
          Corporation         08/08/94      207,482      2,332

94-1039  American Association
          of Variable
          Star Observers      08/15/94        1,868         59

94-1040  Triangle Research
          and Development
          Corporation         08/15/94       14,727          0

94-1041  Boston Partners
          in Education, Inc.  09/08/94        1,232         89

94-1042  National Association
          for Industry-
          Education
          Cooperation         09/08/94        3,039      2,895

94-1043  Minnesota
          Zoological Garden   09/08/94       55,699     35,510

94-1044  Foundation
          for Glacier
          and Environmental
          Research            09/08/94       133,353   131,961

94-1045  Desert
          Botanical Garden    09/08/94        69,243    49,928

94-1046  Apeldyn Corporation  09/08/94        19,820     5,312

94-1047  Oregon Advanced
          Computing Institute 09/09/94         2,887         0

94-1048  Institute for
          Productivity
          Research            09/09/94        23,551    18,802

94-1049  Merck & Co., Inc.    09/12/94             0         0

94-1050  Southern
          Connecticut
          State University
          Research
          Foundation          09/13/94     151,969     144,579

94-1051  Energy Conversion
          Devices, Inc.       09/26/94       3,299       3,078

94-1052  North American
          Geotechnical
          Company             09/26/94      34,646      19,375

94-1053  Interphases
          Research Co.        09/28/94       4,861       4,861

94-1054  Computer
          Motion, Inc.        09/28/94           0           0

94-1055  Dames & Moore        09/28/94      11,267      11,267

94-1056  Neushul
          Mariculture, Inc.   09/28/94         907           0

94-1057  The Education
          Group, Inc.         09/28/94       5,956       3,725

94-1058  University
          of Minnesota        09/30/94     117,246           0

94-1059  Michigan
          State University    09/30/94      62,814      29,706

94-1060  Lehigh
          University          09/30/94     201,181      67,121

94-1061  University of
          California,
          Berkeley            09/30/94      67,923           0

94-1062  University
          of Oklahoma         09/30/94       5,098       3,504

94-1063  University
          of Rochester        09/30/94     854,580           0

94-1064  Northern
          Illinois
          University          09/30/94      73,569           0

94-1065  University
          Corporation for
          Atmospheric
          Research            09/30/94           0           0

94-1066  Society for
          the Advancement of
          Chicanos and
          Native Americans
          in Science          09/30/94           0           0

94-1067  Better
          Education, Inc.     09/30/94       17,563          0

94-1068  Sociometrics
          Corporation         09/30/94       19,595          0

94-1069  Consultec
          Scientific, Inc.    09/30/94          382          0

94-1070  Chemludens           09/30/94       72,952          0

94-1071  Breakerwheel, Inc.
          (MRAM, Inc.)        09/30/94       14,303         84

94-1072  Decision
          Development
          Corporation         09/30/94      209,585    174,075

94-1073  Linknet              09/30/94            0          0

94-1074  Laser Institute
          of America          09/30/94        3,809        811

94-1075  Film Arts
          Foundation          09/30/94       75,091     51,770

94-1076  Cold Spring
          Harbor Laboratory   09/30/94       24,291        151

94-1077  Electric Power
          Research Institute,
          Inc.                09/30/94       13,375      2,172

94-1078  WYCO Corporation     09/30/94       23,581     14,880

94-1079  McCormick & Associates,
          Inc.                09/30/94            0          0

94-1080  Lancit Media
          Production          09/30/94          734        734

94-1081  Institute
          for Decisions
          Systems Research    09/30/94       29,562          0

94-1082  The Aspen Institute  09/30/94       37,285     30,857

94-1083  Talcott Mountain
          Science Center      09/30/94      258,354    258,354

94-1084  Fort Worth Museum
          of Science
          and History         09/30/94      368,918    368,918

94-1085  CSY, Inc.            09/30/94      161,836     27,294

94-1086  Byrd & Block
          Communications,Inc. 09/30/94      165,451    153,121

94-1087  Cambridge
          Studios, Inc.       09/30/94       14,284        599



INTERNAL AUDITS

                                                       Date
                                                       Report
Number         Title                                   Issued

94-2109        Review of NSF's Management
               Application Software Maintenance        09/26/94

94-2110        Review of Proposal Processing Times     09/27/94

94-2111        Review of Printing NSF Publication      09/30/94

94-2112        SBIR Preaward Review                    09/30/94



NSF COGNIZANT AUDITS


                              Date
                              Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

94-4052  Galaxy Institute
          for Education       06/30/94       1,074          0

94-4053  The American Society
          for Cell Biology    06/30/94           0          0

94-4054   Girls Incorporated  06/30/94         194          0

94-4055  American Association
          for the Advancement
          of Science ('93)    06/30/94           0          0

94-4056  American Association
          for the Advancement
          of Science ('92)    06/30/94           0          0

94-4057  Field Museum
          of Natural History  06/30/94           0          0

94-4058  Center for Advanced
          Study in the
          Behavioral Sciences 06/30/94           0          0

94-4059  Scientific Committee
          on Ocean
          Research ('93)      06/30/94           0          0

94-4060  Scientific Committee
          on Ocean
          Research ('94)      06/30/94           0          0

94-4061  American
          Meteorological
          Society             06/30/94           0          0

94-4062  American Association
          of Physics Teachers 06/30/94           0          0

94-4063  Five Colleges, Inc.  06/30/94           0          0

94-4064  Museum of Science-
          Boston              06/30/94     279,205    279,205

94-4065  Ohio's Center of
          Science and
          Industry            06/30/94           0          0


94-4066  Conference Board
          on the Mathematical
          Sciences            06/30/94           0          0

94-4067  Human Relations
          Area Files          06/30/94           0          0

94-4068  New York
          Botanical Garden    06/30/94           0          0

94-4069  American Mathematical
          Society             06/30/94         648        648

94-4070  Conference Board
          of the Mathematical
          Sciences            09/08/94           0          0

94-4071  American Educational
          Research
          Association         09/08/94           0          0

94-4072  Connecticut Business
          and Industry
          Association         09/14/94           0          0

94-4073  The Norman
          Howard School       09/14/94           0          0

94-4074  The Exploratorium    09/14/94           0          0

94-4075  San Diego Space
          and Science
          Foundation          09/26/94           0          0

94-4076  The Carnegie
          Institute           09/26/94           0          0

94-4077  Ecological Society
          of America          09/26/94           0          0

94-4078  New York Hall
          of Science          09/26/94      33,109     33,109

94-4079  Kent State
          University
          Foundation          09/26/94           0          0

94-4080  Point Reyes
          Bird Observatory    09/26/94           0          0

94-4081  Montana Council
          of Teachers
          of Mathematics      09/28/94     22,915           0




OTHER FEDERAL AUDITS

                              Date
                              Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


94-5361  Bethune Cookman
          College             06/17/94          0           0

94-5362  Texas Lutheran
          College             06/17/94          0           0

94-5363  Rockefeller
          University          06/17/94          0           0

94-5364  Southern Union
          Junior College      06/17/94          0           0

94-5365  Lafayette College    06/17/94          0           0

94-5366  George Washington
          University          06/17/94         99           0

94-5367  Alabama Aviation &
          Technical College   06/17/94          0           0

94-5368  David Lipscomb
          University          06/17/94          0           0

94-5369  Converse College     06/17/94          0           0

94-5370  St. Mary's College
          of California       06/17/94          0           0

94-5371  University of
          Kansas Center for
          Research, Inc.      06/17/94          0           0

94-5372  Madonna University   06/17/94          0           0

94-5373  University
          of Richmond         06/28/94          0           0

94-5374  State of Oregon      06/28/94          0           0

94-5375  Joslin Diabetes
          Center, Inc.        06/28/94          0           0

94-5376  State of Kansas      06/28/94          0           0

94-5377  Middleburg College   06/28/94          0           0

94-5378  University of Denver 06/28/94          0           0

94-5379  Drake University     06/28/94          0           0

94-5380  Iona College         06/28/94          0           0

94-5381  The University
          of Akron            06/28/94          0           0

94-5382  State of Delaware    06/28/94          0           0

94-5383  Massachusetts Institute
          of Technology       06/28/94          0           0

94-5384  Rensselaer
          Polytechnic
          Institute           06/28/94         75          75

94-5385  Ohio State
          University Research
          Foundation          06/28/94          0           0

94-5386  Pennsylvania
          State University    06/28/94          0           0

94-5387  Nebraska Wesleyan
          University          06/28/94          0           0

94-5388  Hiram College        06/28/94          0           0

94-5389  Duguesne University  06/28/94          0           0

94-5390  State of
          North Dakota        06/28/94          0           0

94-5391  State of Colorado    06/28/94          0           0

94-5392  State of Nebraska    06/28/94          0           0

94-5393  Colgate University   06/28/94          0           0

94-5394  National Academy
          of Sciences         06/28/94          0           0

94-5395  Montgomery County
          Community College   06/28/94          0           0

94-5396  GMI Engineering
          & Management
          Institute           06/28/94     69,786      69,786

94-5397  University of
          San Francisco       06/28/94          0           0

94-5398  Research Foundation
          of the City
          University
          of New York         06/28/94          0           0

94-5399  Brown University     06/28/94          0           0

94-5400  Rutgers University   06/28/94          0           0

94-5401  State of Iowa        06/28/94          0           0

94-5402  Dartmouth College    06/28/94          0           0

94-5403  University
          of Michigan         06/28/94    124,181     124,181

94-5404  University
          of Pittsburgh       06/30/94          0           0

94-5405  State of Washington  06/30/94          0           0

94-5406  John Carroll
          University          06/30/94          0           0

94-5407  Sonoma State
          University
          Academy Foundation,
          Inc.                06/30/94          0           0

94-5408  University
          of Toledo           06/30/94          0           0

94-5409  Ball State
          University          06/30/94          0           0

94-5410  University of
          South Alabama       06/30/94          0           0

94-5411  University of
          California-System
          Office              06/30/94          0           0

94-5412  National Governors'
          Association
          for Policy Research 06/30/94          0           0

94-5413  Western Kentucky
          University          06/30/94          0           0

94-5414  New England
          Aquarium
          Corporation         06/30/94          0           0

94-5415  Civil Engineering
          Research
          Foundation, Inc.    06/30/94         83           0

94-5416  State of Tennessee   06/30/94          0           0

94-5417  Fisk University      06/30/94          0           0

94-5418  California State
          University,
          San Bernardino
          Foundation          06/30/94          0           0

94-5419  State of
          South Carolina      06/30/94          0           0

94-5420  Boston University    06/30/94          0           0

94-5421  Triangle Coalition
          for Science and
          Technology
          Education           06/30/94          0           0

94-5422  Emory University     06/30/94          0           0

94-5423  Mathematics and Science
          Education Center    06/30/94          0           0




OVERSIGHT

                                                  Date
                                                  Report
Number         Title                              Issued


94-3209        Conflicts-of-Interests Reviews:
               NSF Staff and Rotators Entering
               and Leaving, March 1994            04/15/94

94-3210        Conflicts-of-Interests Reviews:
               Volunteers Entering and Leaving,
               March 1994                         04/07/94

94-3211        Conflicts-of-Interests Reviews:
               Intergovernmental Personnel Act
               Assignees Entering and Leaving,
               March 1994                         04/26/94

94-3212        Conflicts-of-Interests Reviews:
               NSF Staff and Rotators Entering
               and Leaving, April 1994            05/19/94

94-3213        Conflicts-of-Interests Reviews:
               Volunteers Entering and Leaving,
               April 1994                         06/07/94

94-3214        Conflicts-of-Interests Reviews:
               Intergovernmental Personnel Act
               Assignees Entering and Leaving,
               April 1994                         05/19/94

94-3215        Conflicts-of-Interests Reviews:
               NSF Staff and Rotators Entering
               and Leaving, May 1994              06/24/94

94-3216        Conflicts-of-Interests Reviews:
               Intergovernmental Personnel Act
               Assignees Entering and Leaving,
               May 1994                           06/24/94

94-3217        Conflicts-of-Interests Reviews:
               Volunteers Entering and Leaving,
               May 1994                           06/20/94




STATISTICAL INFORMATION REQUIRED BY
THE INSPECTOR GENERAL ACT OF 1978, AS AMENDED

Table I.  Audit Reports Issued With Questioned Costs

                                        Questioned     Unsupported
                              Number         Costs           Costs


A.   For which no management
     decision has been made
     by the commencement of
     the reporting period.    43        3,272,287      1,552,669

B.   Which were issued
     during the reporting
     period.                  66        4,566,712      2,456,620

C.   Adjustments to
     questioned costs
     resulting from
     resolution activities.    0              188              0

Subtotal of (A+B+C)          109        7,839,187      4,009,289

D.   For which a management
     decision was made
     during the reporting
     period.                  27        1,119,284        324,125

     (i) dollar value of
     disallowed costs          0          319,675           N/A

     (ii) dollar value of
     costs not disallowed      0          799,609           N/A

E.   For which no management
     decision has been made
     by the end of the
     reporting period.        82        6,719,903      3,685,164

Reports for which no
management decision was
made within 6 months of
issuance.                     22        2,317,244      1,369,331



INSPECTOR GENERAL REPORTS


******************************************************************
Funds to be Put to Better Use:  Funds the OIG has identified in an
audit recommendation that could be used more efficiently by
reducing outlays, deobligating program or operational funds,
avoiding unnecessary expenditures, or taking other efficiency
measures.
******************************************************************


Table II.  Audit Reports Issued With Recommendations For Better Use
of Funds

                                                            Dollar
                                                  Number     Value


A.   For which no management decision
     had been made by the commencement
     of the reporting period.                          0         0

B.   Which were issued during the
     reporting period.                                 1    800,000

     Subtotal of A & B                                 1    800,000

C.   For which a management decision
     was made during the reporting period.             0         0

               (i) dollar value of recommendations
               that were agreed to by management       0         0

                    based on proposed management
                     action                            0         0

                    based on proposed legislative
                     action                            0         0

               (ii) dollar value of recommendations
               that were not agreed to by
               management                              0         0

D.   For which no management decision has
     been made by the end of the reporting
     period.                                           1    800,000

Report for which no management decision was
mad within 6 months of issuance.                       0         0



ADDITIONAL PERFORMANCE MEASURE

As required by the Inspector General Act of 1978, we provide tables
in each Semiannual Report to Congress that give statistical
information on work conducted by our audit and investigation units.

Tables that provide statistics concerning these required
performance measures.  Vice Presidents Gore's National Performance
Review, GAO, and OMB have suggested that Offices of Inspector
General develop additional performance measures that provide
information about their activities.  As a result, we developed an
additional performance measure to better explain the work of our
office.

OIG staff member regularly conduct reviews of internal NSF
operations.  These reviews often result in systemic recommendations
that are designed to improve the economy and efficiency of NSF
operations.

We routinely track these systemic recommendations and report to
NSF's Directors and Deputy Director quarterly about the status of
our recommendations.  The following table provides statistical
information about the status of all systemic recommendations that
involve internal operations of the Foundation.  The statistics
demonstrate that NSF management has, in general, agreed to resolve
our systemic recommendations in a reasonable manner.



STATUS OF SYSTEMIC RECOMMENDATIONS THAT
INVOLVE INTERNAL NSF MANAGEMENT


Open Recommendations


Recommendations Open at the
Beginning of the Reporting Period                           36

New Recommendations Made During Reporting Period            39

Total Recommendations to be Addressed                       75


Management Resolution of Recommendations/1


Recommendation Awaiting Management Resolution                7

Recommendation Resolved by Management                       68

          Management Agrees to Take Reasonable Action       68

          Management Decides No Action is Required           0


Final Action on OIG Recommendations/2


Final Action Completed                                      21

Recommendations Open at End of Period                       54

-----------------------------------------
[footnote 1]  "Management Resolution" occurs when managment
completes its evaluation of an OIG recommendation and issues its
official response identifying the specific action that will be
implemented in response to the recommendation.

[footnote 2]  "Final Action" occurs when management has all actions
it has decided are appropriate to address an OIG recommendation.
-----------------------------------------


Aging of Open Recommendations

Awaiting Management Resolution:

               0 through 6 Months                           5

               7 through 12 Months                          1

               more than 12 Months                          1

Awaiting Final Action After Resolution:

               0 through 6 Months                          25

               7 through 12 Months                          3

               13 through 18 Months                         5

               19 through 24 Months                        10

               more than 24 Months                          4

Recommendations Where Management Decides No Action is Required

None to report during this period.

Recommendations Awaiting Management Resolution for More Than 12
Months

By memorandum on June 25, 1993, we recommended that the Director
decide what actions, if any, should be taken with regard to
individuals who have been found to have committed misconduct in
science by the Department of Health and Human Services but have not
been debarred.  The Director has obtained advice from the Office of
General Counsel and is discussing the issue with senior staff.  The
delay in resolving this issue leaves unresolved a significant issue
in the management of the Agency's misconduct cases.

Recommendations Awaiting Final Action for More Than 24 Months

1.  In Report No., OAO-15-04-88, Review of the NSF Computer
Security Program, April 15, 1988, we recommended that a risk
analysis for computer operations be performed and a contingency
plan consistent with published guidelines be developed.  The
proposal for preparing a contingency plan is expected in November
1994, and preparation of the plan is anticipated to begin in
December 1994.  Although the delays in implementation were
extensive, no losses have resulted.  We consider the current action
to be reasonable.

2.  In Report No., OAO-19-06-88, Review of Password for the
Electronic Timecard System, June 15, 1988, we recommended that
encrypted passwords be developed for the electronic timecard
system.  Management deferred implementation of this recommendation
because a new payroll/personnel system that would include this
feature was already being planned.  However, the new system was
delayed due to the budget constraints and other priority projects.
Development is currently underway and completion is planned for the
first quarter of 1995.  We consider management's current action to
be reasonable.

3.  In Report No., OIG-02-89, Followup Review of NSF Time and
Attendance Reporting System, March 6, 1989, we recommended that
daily employee flextime records be automated and interfaced with
the timecard system.  The records were automated, but the system
interface was postponed and scheduled as part of a new
payroll/personnel system.  In Semiannual Report Number 10, page 14,
we expressed concern over the delay in implementing this interface.
We estimated that NSF would save at least $900,000 and put these
funds to better use once the planned interface system was
implemented.  The timecard portion of the system is now being
tested, user training sessions are underway, and management has
given the 1st quarter of FY 1995 as the implementation date.
We consider management's current action to be reasonable.

4.  By memorandum on July 1, 1992, we recommended that NSF have an
amendment enacted to bring the NSF under the jurisdiction of
Program Fraud Civil Remedies Act.  NSF prepared an amendment to the
Act and submitted it to Congress on May 11, 1993.  Congress did not
act on the proposed amendment.  The House and Senate staffs have
indicated support for the amendment and a willingness to consider
including it in suitable legislation when the opportunity arises.
NSF management will again include this amendment in the
Foundation's legislative program for FY 1996.  We consider
management's action to be reasonable.



Prepared by:

Office of Inspector General
National Science Foundation

For additional copies, write:

Office of Inspector General
4201 Wilson Boulevard
Arlington, VA  22230

For additional information, call:

Audit                                        (703) 306-2001

Investigations                               (703) 306-2004

Oversight Activities
(including misconduct in science
 and inspections)                            (703) 306-2006

Legal Issues                                 (703) 306-2100

Electronic Mail Hotline:                     oig@nsf.gov

